Semiannual                          Office of Inspector General
                                    U.S. Department of Transportation


Report to Congress





OCTOBER 1, 2003 – MARCH 31, 2004

   s e m i a n n u a l

    r e p o r t t o

     c o n g r e s s

    October 1, 2003 through March 31, 2004




Office of Inspector General ■ U.S. Department of Transportation

                  c o n t e n t s

                                                                                                                    Page

From the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v


Work Planned and in Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


Audits, Investigations, Testimony
    Aviation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

    Highway, Transit, and Rail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

    Maritime . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .23

    Department Management Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .25

    Transportation Safety . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .27


Focus . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34


Other Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .43


Charts & Tables

    Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

    Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . .48

    Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .49

    Application of Investigation Project Hours by Operating Administration . .49

    Application of Investigative Resources by Priority Area . . . . . . . . . . . . . . .50

    Completed OIG Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .50

    OIG Reports with Recommendations That Questioned Costs . . . . . . . . .51

    OIG Reports with Recommendations That Funds Be Put to Better Use . .51

    OIG Reports Recommending Changes for Safety, Economy, or Efficiency 52

    Management Decisions Regarding OIG Recommendations . . . . . . . . . . .52

    Office of Inspector General Published Reports . . . . . . . . . . . . . . . . . . . . .53

    Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . .56

    Status of Unresolved Recommendations Over Six Months Old . . . . . . . . .56

    Applications of Audit Project Hours by Operating Administration . . . . . . .57


Mission, Organization, & Contacts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .58


Abbreviations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .61




                                                                                                                               iii
         from the 

 i n s p e c t or g e n e ra l 

I  am pleased to present OIG’s Semiannual Report to Congress for the six-month period ending March 31, 2004. I want to express
   appreciation to Secretary Mineta, Deputy Secretary Van Tine, modal Administrators, and Members and staff of Congress for their
responsiveness to OIG recommendations for strengthening safety, improving program delivery, and maximizing efficiency.
   ■ Aviation. In terms of safety, both FAA and U.S. carriers have maintained a remarkable safety record. The 2003 Air Midwest
crash in Charlotte was the only fatal commercial accident in the past two years. A significant challenge for FAA will be to adjust its
safety oversight to trends in the industry, such as outsourcing maintenance.
   As our airline industry metrics report illustrates, a critical challenge is how our system copes with increasing delays as the num­
ber of flights approach the levels experienced in 2000. Although systemwide delays have not yet reached 2000 levels, they are grow­
ing rapidly. In the first 5 months of 2004, the number of systemwide delays rose 33 percent over the same period in 2003, while
delays in some key markets now exceed 2000 levels. Factors contributing to this either did not exist or were less prominent in 2000.
Greater reliance on regional jets, expanded low-cost carrier service, and security screening requirements present new demands for
our airports and airways.
   Delays, such as those at Chicago’s O’Hare, can radiate outward into the aviation system. Twice in the past year, DOT inter­
vened to encourage the airlines to voluntarily reduce their schedules at O’Hare, but delays have continued to grow. In August,
DOT and FAA convened a meeting with the domestic air carriers at O’Hare, reaching a voluntary agreement subsequently clari­
fied in an FAA Order, to reduce the number of hourly flights for the six-month period from November 1, 2004 to April 30, 2005.
Even if the airlines and the Administration are able to effectively reduce O’Hare delays through voluntary or administrative meas­
ures, we need to continue exploring other approaches as well, such as market-based solutions, which might be utilized for O’Hare
and other airports faced with increasing delays.
   While the number of air travelers has increased notably in recent months as demand continues to recover from the downturn
following 9/11, there still remains a substantial decline in projected Aviation Trust Fund revenues. Current estimates for FY 2005
Trust Fund revenues are about $11.1 billion. FAA’s FY 2005 budget request exceeds those revenues by nearly $3 billion. As sev­
eral big ticket projects are ramping up, like En Route Automation Modernization and STARS, they will be competing against a
host of other programs for available funds.
   FAA faces the expected retirement of nearly half of its 15,000 air traffic controller workforce over the next decade. Whether FAA
will need to replace them on a one-for-one basis depends on a variety of factors, including future air traffic levels, new technologies,
and initiatives that FAA undertakes in hiring and training. Having a labor distribution system in place to provide critical data would
help manage this surge by determining how many controllers are needed at each facility. While the system’s deployment has been
on hold for two years pending negotiations between FAA and the controllers’ union, we are heartened that the Administrator
recently committed to its implementation by June 2005.
   ■ Surface Transportation. Both FHWA and FTA continue to operate under short-term financing pending reauthorization of sur­
face transportation programs. The debate has highlighted the overwhelming demand for transportation dollars at a time when less
than anticipated revenue is flowing into the Highway Trust Fund, raising concerns as to whether funding levels will be sufficient to
meet this demand.
   In 2000, there were 16 FHWA and FTA projects in the mega projects category (costs estimated over $1 billion or with high con­
gressional significance). Today, there are currently 41 active mega-projects, 15 highway and 26 transit, with a combined total cost
estimate of $56 billion. There are another 34 proposed projects with a combined cost estimate of $57 billion.
   Mass transit and passenger rail operators are facing the challenge of enhancing safety and security while carrying out their com­

                                                                                                                                      v
mercial function of keeping passengers on the move. Accordingly, we have begun to assess DOT’s role and responsibilities in this
area, the extent to which DOT and the Department of Homeland Security collaborate on security-related functions, and the effec­
tiveness of DOT security funding.
   Other noteworthy issues include:
   ■ Pipeline security and safety: RSPA’s Office of Pipeline Safety has made significant progress in implementing NTSB recom­
mendations and meeting congressional mandates, such as promulgating regulations requiring integrity management plans for haz­
ardous liquid and natural gas transmission pipelines. However, it will be some years before the regulations are fully implemented
nationwide. Further, one key segment of the system — the 1.8 million miles of natural gas distribution pipelines — is not required
to have integrity management programs. Over the past decade, natural gas distribution pipelines have experienced four times the
number of fatalities and three times the number of injuries than the combined totals for hazardous liquid and natural gas transmis­
sion pipelines.
   ■ CDL Fraud: We continue to find gaps in the commercial driver’s license program. OIG investigators have identified schemes in
19 states involving thousands of drivers where examiners issued fraudulent CDLs in return for bribes. In addition, unlike applicants
for hazardous material CDL endorsements, applicants for non-hazmat CDLs do not have to demonstrate U.S. citizenship or legal
presence. Since nearly 70% of the 11 million CDLs issued since 1989 are for the non-hazmat category, this presents a large loop-
hole. We recommended that all CDL applicants demonstrate that they are either a U.S. citizen or otherwise legally present in the
United States.
   ■ Highway Safety: In light of the recent Supreme Court decision, we are reviewing FMCSA’s readiness for ensuring that Mexican
trucks and their drivers comply with U.S. safety standards once the border is fully opened. We also will issue our audit on whether
NHTSA will be able to fully evaluate early warning data being submitted by vehicle and equipment manufacturers to detect early
warning signs of potential defects that threaten public safety.
   ■ Better utilizing and protecting taxpayer investments in highway and infrastructure projects: We worked with the Secretary and
Congress to propose several provisions in the House and Senate-passed TEA-21 reauthorization bills to enhance the oversight of
major infrastructure projects and ensure the best use of taxpayer funds. OIG’s third national fraud awareness conference in Seattle
attracted officials from 45 states. Participants highlighted best practices for detecting and preventing fraud in highway and transit
programs, which now account for 75% of our total contract and grant fraud caseload.
   Motor fuel tax evasion drains money that would otherwise be available for infrastructure improvements from the Highway Trust
Fund. For example, in June, a motor fuel distributor pled guilty to shortchanging the Trust Fund by more than $7.5 million in
motor fuel excise taxes and three states by $10 million. Also, DOT must move more aggressively to deobligate the hundreds of
millions of dollars that have sat idle on completed, cancelled, or modified projects, so these funds can be put to productive use on
active projects.
   ■ Financial accountability: Working with the Secretary and modal administrators, the Department made significant progress in
ensuring that taxpayer funds are spent effectively. For the third year in a row, DOT received a clean opinion on its FY 2003 finan­
cial statements, and it successfully completed the conversion throughout the Department to a new financial management system.
   DOT must exercise vigilance to sustain this progress, as it faces the challenge of completing financial statements and obtaining a
clean audit opinion by November 2004, under the accelerated OMB reporting deadlines. Corrective actions must also focus on the
resolution of deficiencies existing in internal controls over financial management and reporting activities at FHWA and FMCSA.
   Over the past 6 months, our investigative work resulted in 90 convictions and more than $24 million in fines, restitutions, civil
judgments and recoveries. We also issued 39 audit reports, testified three times before Congress and made more than $553 mil-
lion in financial recommendations that questioned costs and suggested how funds could be
put to better use.



vi                Semiannual Report to Congress
         work
    planned and in
       progress


T
         his section describes major work the Office of Inspector General
         (OIG) has planned for the next reporting period — April through
         September 2004 — as well as work already in progress.

                                    Aviation
■ Addressing Air Traffic Controller Attrition
   Determine whether: (1) the Federal Aviation Administration (FAA) has
identified future hiring requirements for air traffic controllers and if the
agency’s sources for filling controller vacancies will be sufficient to meet pro­
jected requirements; (2) FAA’s on-the-job training effectively develops fully
certified controllers in a timely and cost-effective manner; and (3) FAA’s man­
agement of and controls over the air-traffic instructional services contract are
adequate. Attrition in FAA’s air-traffic-controller workforce is expected to rise
sharply in upcoming years.

■ Safety Oversight of an Air Carrier Industry in Transition
    Evaluate whether (1) FAA’s monitoring of financially distressed air carriers
is effective; (2) the Air Transportation Oversight System and the Safety
Performance Analysis System provide the data and tools inspectors need to
effectively monitor financially distressed air carriers; (3) FAA has effectively
implemented procedures to heighten surveillance of low-cost air carriers dur­
ing periods of growth or change; and (4) FAA is effectively using its risk-based
surveillance-evaluation program to target identified risk areas and as an aid in
allocating inspector resources for the oversight of low-cost air carriers.

■ Airport Modernization Plan
  Investigate the FAA’s progress for reviewing and approving Chicago’s pro-
posed O’Hare Modernization Plan.

■ National Airspace Redesign
  As FAA works to redesign the nation’s airspace, assess the effectiveness of the
agency’s process to control costs, mitigate risks, and coordinate local, regional,



                                                                                     1
                                    and headquarters’ efforts, and determine if opportunities exist to make the
                                    redesign efforts more cost effective.

                                    ■ STARS
                                       Determine the validity of STARS’s life-cycle cost studies and other relevant
                                    analyses used to justify and rebaseline the STARS program. STARS-Standard
                                    Terminal Automation Replacement System-is FAA’s strategy for modernizing
                                    automation at aviation terminals throughout the National Airspace System. We
                                    are performing this work as directed by Congress in the conference committee
                                    report accompanying the FY 2004 omnibus appropriations.

                                    ■ En-Route Automation System
                                       Determine (1) whether FAA has a realistic, executable plan to provide a new
                                    en-route automation system on time and within budget; (2) key program risks
                                    that could affect FAA’s ability to meet cost and schedule projections; and (3)
                                    whether FAA has adequately addressed computer security in the system design.
                                    The program is intended to replace the “host” computer hardware and soft-
                                    ware used to receive, process, and track the movement of high-altitude aircraft
                                    throughout the National Airspace System.

                                    ■ Air Carriers’ Use of Noncertificated Repair Facilities
                                       Verify (1) how FAA identifies and oversees work performed at noncertificat­
                                    ed repair facilities; (2) how FAA requirements for noncertificated facilities dif­
                                    fer from those for certificated facilities; and (3) the quantity and type of work
                                    that air carriers outsource to noncertificated repair facilities.

                                    ■ Alleged Leave and Overtime Abuse
                                       Identify what FAA has done (1) to investigate allegations that some employ­
                                    ees are manipulating work schedules, sick leave, and annual leave to increase
                                    their overtime pay; and (2) to implement new policies and procedures to cur-
                                    tail potential future abuse.

                                    ■ Regional Support-Services Contracts
                                       Determine whether FAA regional offices are implementing adequate con-
                                    tract-administration procedures and providing proper management oversight
                                    of support-services contracts for technical services such as engineering, envi­
                                    ronmental, and installation support.

                                    ■ Review of Tulsa International Airport
                                       Determine whether the Tulsa International Airport’s agreement to purchase
                                    property used as collateral in a loan to Great Plains Airlines could result in the mis­
                                    use of airport funds.


2   Semiannual Report to Congress
                 Financial and Information Technology
■ Volpe Accounting System
  Determine whether revenues and costs of the Volpe National Transportation
Systems Center, in Cambridge, MA, which are accumulated by project and
funded by various agencies, are accurately recorded in the accounting system
and properly allocated to customers.

■ En-Route Air-Traffic-Control Computer Systems
  Assess whether computer operations at the FAA Air-Traffic En-Route
Center are adequately secured to ensure the integrity, confidentiality, and avail-
ability of mission-critical systems.

■ Air-Traffic-Control Developmental Computer Systems
   Determine whether air-traffic-control developmental computer systems
housed at FAA’s Technical Center are adequately secured to ensure the integri­
ty and continuity of efforts that support and modernize national airspace.

■ Inactive Obligations
   Assess whether inactive obligations at the Federal Transit Administration
(FTA), FAA, and the Maritime Administration (MARAD) represent valid
financial liabilities.

■ FAA’s Cost-Accounting System
   As required by law, assess the adequacy and accuracy of FAA’s cost-account­
ing system and apprise Congress of our results on specific assessment areas as
of December 31, 2003.

■ Budget Requests for Enhancing Information Technology
   Determine (1) whether the FY 2004 and 2005 budget requests for enhanc­
ing information technology from the Department and Operating
Administrations contain duplicative or overlapping items; (2) whether the Office
of the Chief Information Officer adequately planned and coordinated the budg­
et requests; and (3) what progress has been made in improving information-
technology security, e-government services, and IT investment management.

■ Annual Audit of Information Security
   As required by law, evaluate (1) the adequacy of the security protecting the
Department’s information networks, systems, critical air-traffic-control infra­
structure, and e-government services; and (2) the Department’s progress in cor­
recting information-security “material weaknesses” identified in our September
2003 audit report on the Department’s information-security program.

                                                                                     w or k p l a n n e d a n d i n p r o g re s s   3
                                    ■ DOT Consolidated Financial Statements
                                       Perform our annual audit of the Department of Transportation’s (DOT)
                                    principal financial statements to determine whether DOT had adequate inter­
                                    nal controls over financial reporting. In FY 2003, DOT complied with laws and
                                    regulations, and the statements conformed to generally accepted accounting
                                    principles.

                                    ■ DOT Accounting Consolidation
                                      Determine the extent of financial and operational benefits were DOT to
                                    consolidate its accounting functions.

                                                         Surface and Maritime Programs

                                    ■ Tren Urbano Follow-Up
                                       For the Tren Urbano Rail Transit Project in San Juan, Puerto Rico, evaluate:
                                    the reliability of cost and schedule estimates; whether the Puerto Rico Highway
                                    and Transit Authority’s (HTA’s) financial plan is realistic; efforts to resolve sig­
                                    nificant, outstanding construction-quality problems; and HTA’s plans and pro­
                                    cedures to begin Tren Urbano’s revenue operations, including operational test­
                                    ing of the rail system.

                                    ■ Highway-Rail Grade-Crossing Safety
                                       Evaluate the Department’s progress in implementing recommendations
                                    from our 1999 report on the highway-rail grade-crossing safety program; iden­
                                    tify the states’ best practices and strategies that are reducing the number of
                                    accidents, injuries, and fatalities at highway-rail grade crossings; and determine
                                    the status of departmental safety proposals to ensure the Department meets its
                                    2004 goals.

                                    ■ Vehicle Safety Compliance
                                       Evaluate the National Highway Traffic Safety Administration’s (NHTSA)
                                    timeliness in processing applications to import vehicles that do not meet U.S.
                                    safety standards and in handling hardship exemptions for military personnel
                                    and others, and determine the reasons that importers may be experiencing
                                    delays in obtaining NHTSA’s approval to import vehicles.
                                    ■ Defects Investigation
                                       Evaluate NHTSA’s progress in implementing recommendations from our
                                    2002 audit report regarding timely completion of TREAD Act requirements
                                    and improved identification and investigation of potential defects in vehicles.

                                    ■ State Transportation Management
                                      Determine the effectiveness of the Federal Highway Administration’s


4   Semiannual Report to Congress
(FHWA) oversight of state transportation management processes.

■ Central Artery/Tunnel Finance Plan
   As required by Congress, determine whether the estimated cost of the annu­
al finance plan for the Central Artery/Tunnel Project in Boston, MA, is rea­
sonable, the funding is sufficient, the project schedule is reasonable and
addresses prior concerns, and cash flows and other project information are
accurately presented. In addition to Congressional requirements, evaluate the
progress made in recovering costs for design errors and omissions.

■ Structurally Deficient Bridges
   Evaluate whether structurally deficient bridges in the National Highway
System have been inspected in accordance with National Bridge Inspection
Standards and FHWA’s oversight is effective to address deficiencies.

■ FHWA Oversight of States
   Evaluate FHWA’s oversight of state processes and procedures for control-
ling, identifying, and tracking errors and omissions on major projects, and
FHWA and state progress in recovering costs resulting from design errors and
omissions.

■ Motor Carrier Safety
   Assess the Federal Motor Carrier Safety Administration’s (FMCSA) progress
in implementing recommendations from our April 1999 audit report, imple­
menting requirements on new-entrant motor carriers specified by the Motor
Carrier Safety Improvement Act of 1999, and issuing rulemakings required by
the act.

■ North American Free Trade Agreement (NAFTA) Cross-Border Trucking Provisions
   Assess FMCSA’s progress in implementing recommendations from our May
2003 audit report and to verify whether the agency’s continues to have the
staff, facilities, equipment, and procedures in place to implement NAFTA’s
provisions.
■ FTA New-Starts Criteria
   Determine whether: (1) FTA’s guidance is sufficient to ensure that alterna­
tive modes and/or alignments analyzed as part of the metropolitan planning
process support the selection of projects forwarded to FTA for proposed “New
Starts” funding; (2) determine whether FTA’s processes and criteria for evalu­
ating proposed New Starts projects adequately identify those projects that will
result in the greatest tangible benefits to those paying for the system; and (3)
identify improvements are needed in alternative analyses and evaluations
processes to ensure transportation projects recommended for New Starts fund-


                                                                                   w or k p l a n n e d a n d i n p r o g re s s   5
                                    ing represent the best local solutions and the best use of taxpayer’s dollars.

                                                      Competition and Economic Analysis

                                    ■ Title XI Loan-Guarantee Program
                                      Determine if MARAD has implemented policies and procedures that ade­
                                    quately respond to our recommendations on the Title XI loan-guarantee
                                    program.

                                    ■ High-Speed Rail Corridors
                                       Assess the status of each designated high-speed rail corridor, focusing on
                                    recent demand studies, expense projections, estimated capital requirements,
                                    and proposed implementation schedules.

                                    ■ Regional Jets
                                      Identify how the airlines are using regional jets to replace and supplement
                                    mainline service, introduce new service, and replace service previously provid­
                                    ed with turboprop equipment. Estimate the impact of regional jets on airfares
                                    and services.

                                    ■ Airline Industry Metrics
                                      Report airline industry metrics that monitor trends in domestic air-service
                                    demand and capacity, air-service performance, airline finances, and air service at
                                    small airports.

                                    ■ Amtrak
                                       Determine whether Amtrak’s projected capital and operating funding needs
                                    for the period are reasonable. Provide to Congress and the Secretary an assess­
                                    ment of Amtrak’s financial status and five-year strategic plan.


                                             Hazardous Material, Security, and Special Programs

                                    ■ Pipeline Safety
                                       Evaluate whether the Office of Pipeline Safety of the Research and Special
                                    Programs Administration (1) fulfilled pipeline safety mandates from 1992 and
                                    1996; (2) expanded research and development to improve technologies used in
                                    pipeline inspections; (3) provided specialized training to pipeline inspectors on
                                    technologies used in, and reports generated from, pipeline inspections; (4) cor­
                                    rected shortcomings in pipeline data collection and analysis; and (5) established
                                    timetables to implement open pipeline safety recommendations of the National




6   Semiannual Report to Congress
Transportation Safety Board.

■ Volpe National Transportation System Center
  Determine how the role and functions of the Volpe National Transportation
Center have changed over the years and whether current center activities meet
DOT needs.

■ Travel Charge Cards
  Determine whether the Department has adequate controls over travel
charge-card delinquencies and charge-offs and has taken appropriate actions
against employees whose accounts were charged off.

■ DOT Rulemaking
  Determine DOT’s effectiveness in managing its rulemaking process and
meeting its deadlines, using its new tracking system.




                                                                                w or k p l a n n e d a n d i n p r o g re s s   7
8   Semiannual Report to Congress
             a v i a t i o n

          Inspector General Testifies on FAA Modernization
                        Before House Panel

   The Inspector General addressed FAA’s efforts to bring fiscal discipline and
accountability to its air-traffic-control modernization program in testimony
before the House Transportation and Infrastructure Aviation Subcommittee.
He remarked that OIG is seeing positive signs from FAA in addressing problems
with major acquisitions. Despite this improvement, much more work remains to
address cost, schedule, and performance problems with major acquisitions.
   The Inspector General listed the following core problems that require sus­
tained management attention:                                                              “FAA is beginning to rein
■ FAA’s commitment to major acquisitions and entry into long-term cost-
reimbursable contracts before it fully understands user needs and agency                    in unabated cost growth
requirements;
■ Misleading and unreliable cost and schedule estimates;
                                                                                           in its operations . . . and
■ Beginning new, costly, and complex programs while still funding programs
                                                                                          is restructuring air traffic
that are significantly over cost and behind schedule;
■ Lack of centralized control and basic contract oversight;                                 as a performance-based
■ Lack of performance measures for assessing progress with major acquisitions
and not holding managers and contractors accountable for cost growth and                         organization.”
schedule slips.

          California Man to Pay $197,384 in Restitution for
                      Fraud, Draws Prison Term
   David F. Slavens of Auburn, CA, was ordered by a U.S. District Court judge
in Sacramento, CA, to serve a 21-month prison term and pay $197,384 in
restitution for lying about his health in order to obtain a pilot’s medical certifi­
cate, while simultaneously receiving Social Security benefits for a chronic ill­
ness. From 1988 to 2002, Slavens received more than $190,000 in Social
Security benefits based on claims that he was suffering from chronic fatigue
syndrome and could not work. Witnesses reported seeing Slavens repairing and
flying his plane and making repairs to an apartment building during the peri­
od. FAA revoked Slavens’s pilot’s license, mechanic’s license, and license giving
him authority to inspect aircraft. Slavens was convicted by a jury on April 2,
2003. The investigation was conducted by DOT and Social Security
Administration OIGs. January 6

                                                                                       Audits, Investigations, Testimony   9
                                                          Airline Industry Metrics Update

                                       We released our fifth periodic report on airline and aviation metrics, which
                                     updated data for the last half of 2003. This report contains 40 metrics that we
                                     developed for monitoring airline industry trends relating to domestic-system
                                     demand and capacity, performance, finances, and air service at small airports.
                                       Included among the findings:
                                               ■ Break-even load factors are declining as airlines reduce costs and
                                               raise average airfares slightly.
                                               ■ Scheduled flights, available seats, and enplanements continued to
                                               decline, but the use of regional jets dramatically increased.
                                               ■ The number of scheduled flights in the last quarter of 2003
                                               exceeded 2002 levels.
                                               ■ Scheduled flights involving regional jets increased 140 percent
                                               since 2000, with regional jets now making up 25 percent of sched­
                                               uled flights.
                                               ■ As of December 2003, low-fare and other nonnetwork carriers
                                               accounted for 46 percent of all domestic air service.
                                                  The metrics are based on data obtained from the Department,
                                               FAA, the Bureau of Transportation Statistics, and the Air Transport
                                               Association and provide decision-makers with past, present, and
                                               future indicators of domestic air-service levels and the general state
                                               of the airline industry. January 8

                                                 Air Traffic Controller Defrauds Workers’ Compensation
                                                             Program of More Than $359,000

                                                   Michael L. Harms, of Grapevine, TX, a former air traffic con-
                                                troller, was convicted by a jury in U.S. District Court in Dallas on
                                     six counts of defrauding the Workers’ Compensation Program of more than
                                     $359,000. Harms filed a workers’ compensation claim in November 1996
                                     when he injured his back while working as an air traffic controller. Even as he
                                     collected these funds and advised the Workers’ Compensation Program of his
                                     continuing unemployment, Harms was earning income as a pilot for air-freight
                                     companies. Harms retired from FAA in April 2004 rather than face removal.
                                     He is scheduled to be sentenced in May. The investigation was conducted by
                                     OIGs of the Department of Labor and DOT. February 6

                                       How FAA Records Time Granted for Representational Activities

                                       A report we issued to the FAA Administrator contained our observations
                                     about official time granted for union representational activities, as reported by

10   Semiannual Report to Congress
             a v i a t i o n

FAA in a recent government-wide survey by the Office of Personnel
Management. The hours that FAA reported as being spent on representational
activities included time granted for traditional representational activities (such as
negotiating agreements) and time granted for bargaining-unit employees to
work on FAA work groups (such as task forces for developing new equipment).
   We reported that FAA’s methodology ensures the accounting of all time
granted as a result of collective-bargaining requirements. Nevertheless, it pres­
ents an inaccurate picture of agency workforce activities, since FAA does not
differentiate whether the time spent on work groups is a result of collective-
bargaining requirements or at the request of management. The current
method could therefore rule out meaningful comparisons with other govern­
ment agencies. CRU-X, FAA’s planned labor-distribution system, could be
used to more accurately capture data on official time by designating different
codes for tracking different activities. We recommended that FAA designate
these different activities within CRU-X to ensure that official time, as report­
ed, accurately reflects the activities of FAA’s workforce. February 10

       IG Testifies on FAA Before House Appropriations Panel
   The Inspector General testified about FAA management and budget issues
before the House Transportation-Treasury Appropriations Subcommittee. His
testimony focused on FAA initiatives over the past year to control costs, oppor­
tunities for further cost reductions, and areas for improved performance.
   The Inspector General noted that FAA is beginning to rein in the unabat­
ed cost growth in its operations account and is restructuring air traffic as a per­
formance-based organization. For example, the agency has eliminated some
costly memorandums of understanding with the air-traffic-controllers’ unions.
Despite these efforts, there remains a substantial decline in projected Aviation
Trust Fund revenues. Current estimates for FY 2005 trust fund revenues are
about $11.1 billion; FAA’s FY 2005 budget request exceeds those revenues
by nearly $3 billion.

Areas for improved performance include:

■ Oversight of Outsourced Maintenance. FAA needs to follow through on

its commitment to adjust its safety oversight to the emerging trend of out-

sourced maintenance in the aviation industry.

■ Runway Incursions and Operational Errors. Operational errors increased 12

percent in FY 2003. While the number of runway incursions declined in FY2003,


                                                                                        Audits, Investigations, Testimony 11
                                     the number of serious incursions increased during the first 5 months of FY 2004.
                                      ■ Planning for the Impending Wave of Air-Traffic-Controller Retirements.
                                     The Inspector General previewed a pending audit of FAA’s plans to replace
                                     about 7,000 controllers who will become eligible to retire over the next
                                     decade. The audit, which we expect to soon release, found that “manage­
                                     ment attention is needed to better prepare for the expected increase in
                                     retirements.”
                                     ■ Major Acquisitions. The Inspector General noted “positive signs” that the
                                     FAA Administrator and her team are addressing fundamental problems with
                                     a number of modernizations projects. Notwithstanding, he noted that addi­
                                     tional steps are needed, among them developing reliable cost and schedule
                                     estimates, avoiding long-term cost-plus contracts, and improving contract
                                     management. FAA Administrator Marion Blakey also testified. March 17

                                          Partner in Miami Airport’s Largest Public-Works Contract
                                                       Sentenced for Insurance Fraud

                                         Linda Forrest, owner of Forrest Management Construction Services
                                     (FMCS), was ordered to spend a year and a day in prison by a U.S. District
                                     Court judge in Miami, FL, for insurance fraud. She will also have to repay
                                     $158,000 to Casualty Reciprocal Exchange, the insurance company she
                                     defrauded. Forrest pleaded guilty in May 2003.
                                         Forrest’s firm, FMCS, is one of eight partners comprising Dade Aviation
                                     Consultants, which was contracted in 1992 by the Miami-Dade Aviation
                                     Department to manage all of Miami International Airport’s federally funded
                                     $5 billion construction projects. FMCS was included as a minority business
                                     enterprise.
                                         Forrest conspired with employees of Casualty Reciprocal Exchange to
                                     file false personal-injury medical claims. Using an FCMS sister company,
                                     Lexor Property Management, Inc., as the payee on the claims, Forrest
                                     cashed checks for $125,000, paying two-thirds to the insurance company
                                     employees and keeping one-third for herself. This is an investigation of the
                                     Miami Dade Police Department’s Public Corruption Unit, FBI, and OIG.
                                     March 17

                                                  Former FAA Computer Technician Jailed for
                                                       Possessing Child Pornography
                                       Lawrence A. Sage, a former FAA air-traffic-control computer specialist in
                                     Auburn, WA, was sentenced by a U.S. District Court judge in Seattle to 27
                                     months in prison for possession of child pornography. OIG investigated Sage


12   Semiannual Report to Congress
             a v i a t i o n

for using the government computer in his work station to download, view, and
save child pornography and other obscene materials. Sage pleaded guilty to one
count of possessing child pornography. As a result of OIG’s investigation, Sage
resigned from his position on July 11, 2003. March 26

       FAA’s Advanced Technologies and Oceanic Procedures

   At the request of John L. Mica, chairman of the House Transportation and
Infrastructure Aviation Subcommittee, we prepared a status report on FAA’s
Advanced Technology and Procedures (ATOP) program, which will modern­
ize FAA facilities that manage traffic over the Atlantic and Pacific Oceans. We
found that ATOP has experienced some serious and unexpected software
development and testing problems. Due to these problems and pending delays,
FAA modified the ATOP contract and made an $11 million adjustment in
order to maintain the schedule for deploying the program to Oakland, CA.
   While the $11 million adjustment can be accommodated within the current
cost estimate, we expressed concern about what happens between now and
February 28, 2005. This timeframe is important because the contract modifi­
cation limits the contractor’s responsibility for paying for fixing software prob­
lems after that date. March 31

                Audit Finds $12.5 Million Diverted from
                      San Francisco Airport to City
   Our audit on revenue diversion at the San Francisco International Airport
found about $12.5 million in airport revenue was diverted to San Francisco city
and county uses in FYs 1998-2002. Eight city departments diverted revenues
by charging the airport for indirect costs that were already received through an
annual service payment, for unsupported costs, or for direct services which
were based on an allocation inconsistent with other comparable units of gov­
ernment. We recommended that FAA determine the extent of any additional
revenue diversion since FY 1998, find out if identified revenue-diversion prac­
tices have been corrected, and seek full recovery of the diverted revenues,
including the $12.5 million identified in the audit. March 31




                                                                                     Audits, Investigations, Testimony 13
14   Semiannual Report to Congress
h i g h way, t r a n s i t,

        and rail

           IG Testifies on Future of Intercity Passenger Rail

   The Inspector General testified on the future of intercity passenger rail,
Amtrak, and the DOT reauthorization proposal before the Senate Commerce,
Science, and Transportation Committee. His testimony covered key reautho­
rization issues and how the Administration’s bill proposes to address them.
These issues include the development of short-distance corridors and its impli­
cations for long-distance trains; the separation of infrastructure from operating
service responsibilities in the Northeast Corridor and its inherent risks; state
governance of intercity rail service and associated funding obligations; funding
Amtrak’s current legacy expenses; and the need to secure a consensus for con­
sistent Federal funding of passenger rail service.
   The Inspector General commented on the Administration’s bill, which pro-
poses to focus Federal capital funding on developing and investing in short-dis­
tance corridors (routes with end-to-end distances of less than 500 miles).
Development of short-distance corridors would target improvements to the
services that are most patronized and hold the greatest future potential for pas­
senger growth. He supported the Administration’s transfer of more decision-
making responsibilities to the states, recommended that the Northeast
Corridor remain an integrated organization, and presented an estimate of the
required level of funding under the Administration’s bill. Federal Railroad
Administrator Allan Rutter and Amtrak President David Gunn also testified.
October 2

 Company Owner Sentenced for Cheating Workers Out of Wages

   Dennis E. Rehder, owner of DGS General Construction, Inc., of
Woodburn, OR, was sentenced in U.S. District Court in Portland,
OR, to pay $27,396 in restitution and $5,100 in fines for failing to pay
his employees the prevailing wage. Rehder knowingly underpaid
employees working on the Salem Historic Passenger Rail Station, a
Federal-aid project, funded in part by the Federal Highway
Administration, thereby avoiding payment of an additional $33,814 in
wages. This investigation was conducted jointly by DOT OIG and the
Department of Labor OIG. December 8




                                                                                    Audits, Investigations, Testimony 15
                                          FRA’s Oversight of Slow Orders and Track Reclassification

                                        Our audit report regarding FRA’s oversight of railroad slow orders and track
                                     reclassification found the agency has no recordkeeping and reporting require­
                                     ments governing slow orders. In addition, we found that neither FRA nor two
                                     of the three railroads we visited maintain detailed historical records of slow
                                     orders. As a result, we could not determine whether slow orders affect track
                                     safety or cause the increasing number of train delays. We found that the largest
                                     railroads have steadily increased their rail roadway investment since 1980. In
                                     order to identify potential problems in roadway investments, we recommend­
                                     ed that FRA review CSX Transportation’s replacement practices for ballast-
                                     material placed on the roadbed to anchor track and monitor railroad annual
                                     financial and operational “R-1” reports to the Surface Transportation Board.
                                     FRA concurred with our recommendations. December 10

                                                             Amtrak’s Loan-Condition 8

                                      We issued a letter to Secretary Mineta, FRA Administrator Rutter, and the
                                     House and Senate Appropriations Committees on Amtrak’s compliance with
                                              condition 8 of its Railroad Rehabilitation and Improvement
                                              Financing Loan. Loan-condition 8 requires Amtrak to identify the
                                              extent to which commuter operations would be affected if Amtrak
                                              shut down.

                                                  In response to Amtrak’s initial submission to us, we asked for:

                                                  ■ an analysis of the overhead expenses required to operate the

                                                  Northeast Corridor and commuter services if all other services shut

                                                  down;

                                                  ■ an analysis of the capital funds required to maintain the Northeast

                                                  Corridor and commuter services for three months and for one year

                                                  if all other services shut down; 

                                                  ■ a report incorporating these analyses into a detailed assessment of

                                                  the operating and funding requirements for providing commuter

                                                  services if all services but the Northeast Corridor shut down.

                                                      Amtrak simply submitted documents from which some, but not
                                     all, of the required data could be obtained. We concluded that Amtrak did not
                                     fully “explain the manner and extent to which any suspension of Amtrak oper­
                                     ations would affect commuter rail operations” and found that Amtrak failed to
                                     comply with the requirements of condition 8. The Department approved the
                                     $100 million loan to Amtrak in June 2002. December 9




16   Semiannual Report to Congress
h i g h way, t r a n s i t,

        and rail

             Electric Supply Company and President Fined
                       $228,056 for DBE Fraud

   L&K Electric Supply Company of Birmingham, AL, and company President
Adriene Balton were sentenced in U.S. District Court in Norfolk, VA, to pay
$228,056 in fines, restitution, and assessments for falsifying four applications to
the Virginia Department of Transportation for disadvantaged business enter­
prise (DBE) certification. In September, Balton admitted she and her compa­
ny committed fraud in order to win a $14.7 million contract that counts
toward the state’s DBE contract goal. L&K is barred from participating in the
DBE program for the five years it is on probation. FHWA is considering debar-
ring the firm from taking part in federally funded contracts for three years. The
case was investigated by OIG and the FBI. December 12

   Dywidag-Systems International Pays Over $1.5 Million for Bid
         Rigging on DOT-Funded Construction Projects

   Construction company Dywidag-Systems International USA, Inc. (DSI)
paid $1,564,447 in a civil settlement to the Federal Government and the States
of California and Georgia for its role in a conspiracy to rig bids on DOT-fund­
ed constructions projects. Co-conspirators VSL Corporation and Avar
Construction Systems, Inc., conspired to rig bids on federally funded con­
struction projects in California involving the specialty construction technique
known as “post-tensioning.” DSI also conspired with VSL Corporation and
Freyssinet International et Cie to rig bids on federally funded bridge projects.
   In April 2002, Rene Friedrich, the owner of Avar Construction Systems,
Inc., and Freyssinet International et Cie each agreed to pay $485,000 in civil
fines for their roles in the conspiracies and violations of the False Claims Act.
VSL Corporation has yet to reach a settlement agreement with the
Government. December 15

      Contractor to Sub-grantee Ordered to Pay $750,000 for
                   Motor-Fuel Tax-Evasion Scam

  Samuel Yakobowicz, owner of Twenty-Four Hour Fuel Corporation of
Brooklyn, NY, was ordered by a U.S. District Court judge in Brooklyn to pay
$750,000 in restitution and spend five years and five months in prison for his

                                                                                      Audits, Investigations, Testimony 17
                                     role in a motor-fuel tax-evasion scam. He had filed false tax returns and
                                     obstructed an IRS audit.
                                        Yakobowicz, who sold fuel under contract to the Long Island Railroad, an
                                              FTA-subgrantee, evaded paying $684,318 in excise tax on more than
                                              2.8 million gallons of fuel. He fraudulently obtained refunds of IRS
                                              excise taxes by making it appear that diesel fuel sold to gas stations
                                              had been sold to the tax-exempt railroad. In addition, on numerous
                                              occasions, rather than delivering diesel fuel — which is taxed-to the
                                              railroad — he delivered untaxed home heating oil instead. He then
                                              made out the delivery tickets to show that he had supplied diesel fuel,
                                              applied to the IRS for refunds of fuel excise taxes he had not paid,
                                              and pocketed the refunds. Yakobowicz was found guilty in
                                              September 2003. The case was investigated by the IRS and OIG.
                                              December 17

                                            Florida Road Superintendent Fined $21,000 for Theft

                                         Ray W. Root, a road superintendent for Couch Construction of Port Richey,
                                     FL, was ordered by a U.S. District Court judge in Tampa, FL, to pay the
                                     Florida Department of Transportation (FDOT) $21,000 for stealing asphalt
                                     millings from a Federal-aid highway project and selling them for personal prof-
                                     it. Couch Construction, the prime contractor, was to return the millings to
                                     FDOT.
                                         Asphalt millings, which are ground off the road surface, can be mixed with
                                     new asphalt or used like gravel to fill potholes and cover dirt roads and drive-
                                     ways. Root pleaded guilty in August 2003 to stealing more than $21,000
                                     worth of millings from a resurfacing project along U.S. Highway 19 in Pasco
                                     County, FL, near Port Richey and New Port Richey. During his two-year pro­
                                     bation, Root is prohibited from bidding or acting as a Couch Construction
                                     manager on any state- or federally-funded highway projects. The case was
                                     investigated jointly by OIG, FDOT OIG, and the Florida Department of Law
                                     Enforcement. January 8

                                              Contractor Fined for Bribery, State Inspector Pleads
                                                    Guilty in Ohio Corruption Investigation

                                        In an ongoing corruption investigation in Ohio, a federal contractor was
                                     sentenced for bribery and a state DOT employee was sentenced for making
                                     false statements. On January 8, George Ginnis, part owner of ARGO
                                     Contracting Corp., of Campbell, OH, was fined $5,000 by a U.S. District
                                     Court judge in Cleveland for offering a $2,000 bribe to an Ohio Department
                                     of Transportation bridge inspector. The bribe was paid in April 2001 in return

18   Semiannual Report to Congress
h i g h way, t r a n s i t,

        and rail

for false statements regarding the quality and quantity of work on a federally
funded bridge-painting contract.
   Darrell G. Isaac, an Ohio DOT bridge-painting inspec­
tor, was fined $20,000 and given six months home con­
finement by a U.S. District Court judge in Cleveland, OH,
on January 22. Between June 2000 and October 2001,
Isaac admitted receiving a total of about $30,500 in cash
payments for permitting contractors to use blasting mate-
rial that did not meet specifications and to blast and paint
in substandard conditions. He then reported the contrac­
tors’ work was acceptable.
   In the same investigation, Ohio DOT Inspector Jeff
Burton was fined $500 in U.S. District Court in Cleveland on December 2,
2003, after previously pleading guilty to one count of making false statements
regarding a Federal highway project. This is a joint OIG and FBI investigation.

                   Utah Man Fined $63,892 for Fraud
   Glenn Hafen, owner of Sunrise Transportation, was ordered by a U.S.
District Court judge in Salt Lake City, UT, to pay $63,892 in restitution for
defrauding the Utah Transit Authority (UTA), which receives Federal aid from
FHWA. Hafen entered into vanpool agreements with UTA, certifying that the
major use for the vans was to transport commuters. OIG special agents found
that Hafen’s reason for participating in the vanpool program was to obtain the
vans and operate a for-profit airport shuttle service that transported paying cus­
tomers from the Salt Lake City International Airport to Utah vacation resorts.
January 14

                   Former DC Public-Works Engineer
                     Sentenced for Accepting Bribes

   Timothy Martin, a former project engineer for the District of Columbia
Department of Public Works, was ordered by a U.S. District Court judge in
Washington, DC, to perform 100 hours of community service for accepting a
bribe from a government contractor. Martin pleaded guilty in July 2002 to tak­
ing cash from an employee of the Fort Myer Construction Corporation in
exchange for including false asphalt tickets as a cost of a Federal-aid paving con-


                                                                                      Audits, Investigations, Testimony 19
                                     tract. In April 2003, Fort Myer Construction was fined $900,000 after plead­
                                     ing guilty to conspiracy to bribe inspectors for the city public-works depart­
                                     ment. The conspiracy was tied to three paving companies that were perform­
                                     ing about 30 federally funded contracts in the District and nine public-works
                                     employees. February 23

                                     Review Finds $284 Million in Inactive FHWA Financial Obligations

                                         Our audit identified $284 million in inactive federal-highway obligations
                                     that were no longer needed and could be freed up for use on other important
                                     projects. We conducted the audit to determine whether FHWA’s inactive obli­
                                     gations represent valid financial liabilities or could be used on other projects, as
                                     well as to assess the effectiveness of FHWA’s corrective actions since our 2001
                                     report addressing inactive obligations.
                                         The states annually review projects with inactive obligations of $1 million or
                                     more. Nevertheless, of the $284 million in unneeded obligations that we iden­
                                     tified, about $224 million was associated with projects of $1 million or more.
                                     The remaining $60 million was for $500,000 to $1 million projects.
                                         The $284 million represented 22 percent of the $1.3 billion we reviewed
                                     and was associated with projects that had been canceled, reduced in scope, or
                                     completed. The accuracy of financial obligations is a measure of the effective­
                                     ness of financial management practices. FHWA and state officials are in the
                                     process of freeing the unneeded amounts so they can be used on other proj­
                                     ects. We also estimated that FHWA and the states could free another $251 mil-
                                     lion by more aggressively reviewing its inactive obligations. March 31




20   Semiannual Report to Congress
Courts Crack Down on 29 Extortionist Movers
   During the reporting period, 29 employees of 11 household moving compa­
nies in New York and Florida drew cumulative prison terms of more than 75
years and were ordered to pay more than $4.2 million in restitution. The
employees and moving companies were all investigated by OIG and the FBI for
their part in conspiracies to extort money from unsuspecting customers. The
extortion consisted primarily of giving “low-ball” estimates and then withhold­
ing delivery of the customers’ possessions until they paid an exorbitantly inflat­
ed price. Following their prison sentences, 12 of the felons will be referred to
immigration officials for possible deportation to Israel.

                                   Brooklyn

   Four men who operated four Brooklyn, NY, moving companies were ordered
by a U.S. District Court judge in Brooklyn in October and December 2003 to
spend a total of more than 25 years in jail and pay more than $2.3 million in
fines and restitution for a scheme that extorted money from customers. The
men were owners and presidents of Starving Students Moving and Storage, On-
Time Van Lines, Newstart Moving, and Official Moving and Storage. It is esti­
mated the men extorted at least $437,000 from more than 100 victims.

                                South Florida
   In South Florida, 23 individuals were convicted and 24 were sentenced at
seven moving companies. Those sentenced were ordered to pay more than $1.9
million in restitution and fines and ordered to cumulatively spend more than 50
years in prison for their role in the same type of extortionist conspiracy. The
companies included Majesty Moving & Storage, Sunrise; Southeastern Van
Lines, North Miami; AAA Van Lines and Express Van Lines, both of Miami; and
Century Express Van Lines, Fort Lauderdale. Majesty Moving & Storage alone
accounted for nine of the defendants.

                                 Tacoma, WA

  Two former employees of Nationwide Moving Company of Woodinville,
WA, pleaded guilty in January in U.S. District Court in Tacoma, WA, to
defrauding customers and are scheduled for sentencing on September 24,
2004. October 2003-March 2004




                                                                                     Audits, Investigations, Testimony 21
22   Semiannual Report to Congress
               maritime

   Shipping Company Fined $4.2 Million for Dumping Oil at Sea
   The OMI Corporation of Stamford, CT, a shipping company that transports
petroleum products, pleaded guilty in U.S. District Court in Newark, NJ, to
preparing false documents to cover up the illegal dumping of thou-
sands of gallons of waste oil and sludge at sea. The company agreed
to pay a $4.2 million fine and serve three years probation. OMI
admitted that from about May to September 2001, the chief engi­
neer of the motor tanker Guadalupe authorized the discharge of
wastes into the high seas and made fraudulent entries in the oil record book,
which shows how waste oil is properly treated.
   On September 10, 2001, the U.S. Coast Guard and Environmental
Protection Agency (EPA) inspected the ship and were given the oil record book
containing the falsified entries. The ship’s captain and chief engineer pleaded
guilty in May 2002 in connection with the case. The investigation was con­
ducted by the U.S. Coast Guard, EPA, and DOT OIG. January 21

                MARAD’s Progress with Title XI Reform

   We issued a memorandum to the acting deputy secretary regarding the
Maritime Administration’s (MARAD) progress in reforming the Title XI loan-
guarantee program per the recommendations contained in our March 2003
audit report. We advised that while MARAD has made progress in developing
new draft procedures, it still has to develop and implement three reform meas­
ures and issue official directives documenting its reforms. The procedures still
in development are for the systems that monitor both the financial condition
of borrowers and the physical condition of guaranteed assets over the term of
a loan guarantee, as well as for the acquisition of external reviews.
   Before MARAD can access $25 million in FY 2003 appropriated funds, it is
required by law to implement the recommendations in our report, and we must
certify to Congress that our recommendations have been met. We are contin­
uing to work with MARAD officials in reviewing the adequacy of their new
procedures and policies. February 9




                                                                                   Audits, Investigations, Testimony 23
24   Semiannual Report to Congress
    department 

 management issues

             Top Ten DOT Management Challenges Issued
   We released our annual report on the top man­
agement challenges facing the Department, as            DOT Top Management Challenges for
required by law. The issues comprising this year’s                             FY 2004
reports are highway safety, aviation safety, haz­
                                                       ✦ Highway safety
ardous materials safety and security, protecting
                                                       ✦ Aviation safety
taxpayer investments in highway and transit infra­
                                                       ✦ Hazardous materials safety and security
structure projects, improving FAA’s fiscal disci­
                                                       ✦ Protecting taxpayers’ investments in highway and transit
pline, intercity passenger rail, MARAD’s loan-
                                                          infrastructure projects
guarantee program, financial accountability, the
                                                       ✦ Controlling costs and improving acquisitions at FAA
disadvantaged business enterprise program, and
                                                       ✦ Intercity passenger rail
information technology management.
                                                       ✦ MARAD loan-guarantee program
   In addition to its normal distribution within
                                                       ✦ Financial accountability
the Department and to appropriate congressional
                                                       ✦ Disadvantaged business enterprise program
authorizing and appropriating committees, the
report was incorporated into the Department’s
Accountability Report, which is signed by the Secretary and sent to Congress
and the Office of Management and Budget. December 5

           DOT’s Rulemaking Process and Tracking System

   As a follow-up to our July 2000 report and at the request of Representative
James Oberstar, ranking member of the House Committee on Transportation
and Infrastructure, we issued an audit of DOT’s effectiveness in managing its
rulemaking process and tracking system. We found that DOT has taken posi­
tive steps to improve the rulemaking process and has made significant strides in
overall timeliness. For example, final rules currently take less time to issue on
average than they did in 1999.
   Our recommendations to the Acting Deputy Secretary and Chief of Staff
included requiring compliance with the directives in Secretary Mineta’s mem­
orandum of August 12, 2003, which instructed the Department’s Operating
Administrations to enter reliable data in the tracking system and use the track­
ing system to monitor rules. We also recommended that the Department mod­
ify the tracking system so mid-course adjustments can be made for rules that
miss their original issuance date. Finally, we recommended that the
Department’s Operating Administrators be directed to (1) review pending


                                                                                    Audits, Investigations, Testimony 25
                                     rulemakings over 10 years old to determine whether they should remain ongo­
                                     ing rulemakings; and (2) analyze the age of pending rules in order to focus
                                     their efforts on completing the oldest rules. March 2




26   Semiannual Report to Congress
t r a n s p o r t a t i o n

       s a f e t y

    CEO of Aviation Repair Station Fined $15,000 and Jailed for
                  Lying about Jet Engine Repairs
   Gary Key, president of Key Enterprises, Inc., an FAA-certified repair station
in Oilton, OK, was fined $15,000 and ordered to spend eight months in jail
for falsifying FAA airworthiness approval tags on jet combustion chambers
used on military or civilian aircraft. He was sentenced in U.S. District Court in
Tulsa, OK. To increase profits, Key directed his employees to skip required
repair specifications such as applying a special hardening coating to bushings in
fuel combustion chambers, an omission that can cause engine fires and explo­
sions. Repairs were falsified for Pratt & Whitney JT8 jet-engine combustion
liners. FAA has ordered Key Enterprises to alert customers to
potential problems. Key pleaded guilty in April 2003. OIG inves­
tigated the case jointly with the Defense Criminal Investigative
Service, with assistance from FAA and NASA. October 2

   Chicago Businessman Fined $40,000 and Jailed for
         Attempted Bribery of FMCSA Inspector

    Hei Yeng Kwok, owner of K&W Trading Co., a Chicago truck­
ing company, was fined $40,000 by a U.S. District Court judge in
Chicago and ordered to serve 21 months in prison for attempted
bribery of a Federal safety inspector. Kwok was arrested May 13 by
OIG special agents for attempting to bribe the FMCSA inspector,
first with $2,000 and later with $4,000, in order to improve an
unsatisfactory rating on his company’s safety compliance review.
OIG investigated this case with assistance from FMCSA. October 16

        Truck Driver Pleads Guilty to Use of Fraudulent CDL

  Philip Hardee of North Charleston, SC, pleaded guilty in U.S. District
Court in Charleston to making false statements about his use of a fraudulent
commercial driver’s license and falsifying his driver history to obtain employ­
ment. Hardee was a truck driver with Truck Air of the Carolinas, a commercial
motor carrier in North Charleston. He is scheduled for sentencing in April.
This investigation was conducted jointly by OIG and the South Carolina Law



                                                                                    Audits, Investigations, Testimony 27
                                     Enforcement Division, with assistance from FMCSA and the South Carolina
                                     Division of Motor Vehicles. October 30

                                              Owner of Detector Dogs Against Drugs & Explosives
                                               Gets 15 Months Added to Previous Prison Term

                                        Russell L. Ebersole, owner of Detector Dogs Against Drugs & Explosives of
                                     Stephenson, VA, was sentenced by a U.S. District Court judge in
                                     Harrisonburg, VA, to serve 15 months in jail for instructing an employee to
                                              ship explosives by air and witness tampering. Ebersole pleaded guilty
                                              in August 2003 to telling an employee to ship by air a 1.4-pound box
                                              of explosives marked as kitchen supplies. The shipment violated DOT
                                              regulations and posed a serious risk to public safety. Ebersole also
                                              shipped a second box of undeclared explosives from Hagerstown,
                                              MD, to Seattle, WA, via UPS ground services. He told the individual
                                              who received the ground shipment to destroy the explosives and lie to
                                              Federal investigators.
                                        Ebersole is already serving 72 months in jail for his conviction in an unrelat­
                                     ed case of defrauding the Government. He contracted to provide explosives
                                     detection services at Federal agencies using dogs when the dogs were actually
                                     unable to distinguish explosives. Ten months of the 15-month jail term will be
                                     served consecutively with the 72-month term. November 13

                                          Broker Pleads Guilty to Selling Substandard Aircraft Parts
                                        Amanullah Khan of Brea, CA, pleaded guilty in U.S. District Court in
                                     Anaheim, CA, during the third day of his criminal trial to 12 counts of con­
                                     spiracy and fraud in selling substandard aircraft parts. From 2000 to 2002,
                                     Khan operated United Aircraft & Electronics, an aircraft parts brokerage com­
                                     pany in Anaheim, where he issued false certifications that claimed a grip assem­
                                     bly, a critical part for Bell helicopters, was made of steel when it was actually
                                     made of aluminum. Aluminum has a significantly shorter life than steel. A hel­
                                     icopter grip assembly connects the tail rotor blades to the tail, and if a grip failed
                                     in flight, the helicopter probably would crash. Khan also sold used aircraft parts
                                     that he represented as new. Khan is scheduled to be sentenced in August. This
                                     case was jointly investigated by OIG, the FBI, the Defense Criminal
                                     Investigative Service, and the Air Force Office of Special Investigations, with
                                     assistance from FAA. November 20




28   Semiannual Report to Congress
t r a n s p o r t a t i o n

       s a f e t y

          Hazardous Waste Handler to Pay $1.29 Million for
                   Violating Environmental Laws
   Hormoz Pourat, vice president of AAD Distribution
and Dry Cleaning Services, Inc., of Vernon, CA was
ordered by a U.S. District Court judge in Los Angeles,
CA, to 37 months in prison and fined $1.29 million for
conspiring to violate hazardous waste laws. AAD was one
of Southern California’s largest handlers of dry-cleaning
waste before authorities shut it down in January 2001.
AAD charged cleaning establishments to transport, treat,
and arrange for the disposal of a dry cleaning compound,
perchloroethylene (PERC), a cancer-causing chemical.
The AAD facility had greatly exceeded the storage limit
for hazardous waste containers under its state hazardous
waste permit, but from 1999 to 2001 Pourat continued
to pick up drums of PERC waste from customers and transport and store them.
To hide the permit violations from city and state inspectors, he and his partners
loaded the drums onto trucks before inspections, shipped them off-site, stored
them at facilities that were not permitted to store hazmat, and falsified the ship­
ment manifests. Two other defendants were also charged. December 3

  Two Hazmat Violators Sentenced in Motorcycle Shipment Cases

    Alexander I. Eskin of Honolulu, HI, pleaded guilty in U.S. District Court
in Albany, NY, to filing a false report regarding a hazardous material shipment.
He was sentenced to pay a $5,000 criminal fine and $12,500 civil penalty.
Eskin was a pilot for Northwest Airlines, when in June 2001 he tried to ship
via air a used motorcycle concealed in a container from Albany to Michigan. In
two phone conversations with the shipper the previous day, he was told he
would have to declare the motorcycle as hazardous material (hazmat) because
it contained gasoline and oil. Nonetheless, Eskin claimed on an airbill that the
container did not contain dangerous goods regulated in air transport and also
signed a shipper’s security endorsement stating the cargo did not contain haz­
mat. The motorcycle never was shipped because the container could not fit
through the plane’s cargo door. December 8



                                                                                      Audits, Investigations, Testimony 29
                                        In an unrelated case, Peter Lang, owner of U.S. European Trading Corpor­
                                     ation, an indirect air carrier in Fort Myers, FL, was given two years on proba­
                                     tion by a U.S. District Court judge in Fort Myers, for illegally shipping a used
                                     motorcycle. Lang shipped the motorcycle on a passenger plane in violation of
                                     hazardous material regulations. The investigation was conducted by OIG and
                                     the Transportation Safety Administration. March 8

                                      Trucking Supervisor Imprisoned in Bribes-for-Illegal-CDLs Case
                                        Frank Catanzarite, a former terminal supervisor for Watkins Motor Lines,
                                     Inc., Lyons, IL, was sentenced in U.S. District Court in Chicago to 17 months
                                     prison time for pocketing at least $10,000 in bribes from unqualified drivers.
                                     In order to meet the company’s need for drivers, Catanzarite and John Nowak,
                                     a former safety supervisor for Watkins, recruited non-English-speaking individ­
                                     uals to obtain commercial driver’s licenses (CDLs) issued in Florida. There, a
                                     third-party tester took cash to license the CDL applicants without testing their
                                     skills. Watkins, in turn, hired the CDL holders. Catanzarite allowed the drivers
                                     to work for Watkins in exchange for $500 to $2,000 apiece, and he gave
                                     Nowak $100 to $200 each for his help. In 1998, one of the drivers, Adem
                                     Salihovic, triggered a 74-vehicle pileup in California that killed two people and
                                     injured 51. January 16

                                                   FBI Fugitive Imprisoned for Defrauding FAA

                                         Jose F. Guasch received a 13-month prison term from a U.S. District Court
                                     judge in Ocala, FL, for making and using forged documents to get a job as a
                                     flight instructor. From August 2000 to May 2001, Guasch used the name Jesus
                                     Franscisco Rios on an FAA airline transport and flight instructor certificate at
                                     Ocala Aviation. Investigation revealed that Guasch has been wanted by the FBI
                                     for the 1997 theft of a Lear jet. The FBI charges are still pending. Guasch
                                     pleaded guilty in November 2003 to making false statements to the FAA.
                                     January 22

                                                   Pilot Obtains License Under False Pretenses

                                        Donald Wilson pleaded guilty in U.S. District Court in Miami to piloting
                                     aircraft without a legitimate airman certificate and flying a plane with an unap­
                                     proved modification to its fuel system. Wilson used various fictitious identities,
                                     including FAA certificates, to evade arrest for federal parole violations. He also
                                     modified a plane by installing fuel-tank systems without making the change
                                     according to FAA maintenance regulations. His sentencing is scheduled in
                                     April. January 29


30   Semiannual Report to Congress
t r a n s p o r t a t i o n

       s a f e t y

       Hialeah, FL Man Guilty of Hazmat, Credit Card Crimes
   Humberto Ulloa of Hialeah, FL, pleaded guilty in U.S. District Court in
Miami to five felony charges involving the transportation of hazardous fuel and
use of counterfeit credit cards. Ulloa purchased $230,000 worth of gasoline
between May and August 2003, using 270 counterfeit Postal Service credit
cards at 203 different gas stations in the Miami and Ft. Lauderdale area. At one
point, agents saw him make seven consecutive purchases of gas, totaling over
162 gallons, which he pumped into a 1992 Chevy pick-up that he had modi­
fied to transport large quantities of gasoline.
   By modifying his truck and using it as a crude gasoline tanker, Ulloa was in
violation of Federal standards and posed a threat to public safety. Ulloa’s sen­
tencing is scheduled in May. This was a joint investigation by the U.S. Postal
Service OIG and DOT OIG, U.S. Secret Service, the Florida Department of
Environment Protection, the Miami-Dade Police Department, and the Hialeah
Police Department. January 30



           Six Truckers Sentenced for Falsifying Logbooks
   Of seven drivers for Ontelaunee Transport Services
Inc., of Kempton, PA, who pleaded guilty to falsifying
their driver’s daily logbook, six were sentenced during
the reporting period. The sentences handed down in
U.S. District Court in Philadelphia, included a 10-
month prison sentence for two defendants and a
$10,000 fine for another. Two other drivers were fined
$1,000, with the remaining two drivers being fined
$1,500 and $2,000 respectively. All falsified their log books--some for as long
as three years--to conceal the fact that they were driving over the maximum
number of hours allowed under FMCSA regulations, thereby jeopardizing
public safety.
    Ontelaunee Transport Services is the successor company of the now-defunct
David Kistler and Grandson, Inc. In September 2001, the Kistler company and
several of its officials were fined a total of $50,000 for multiple violations of
Federal hours-of-service regulations. Ontelaunee and its dispatcher have not
yet been tried. OIG investigated the case with assistance from the Federal
Motor Carrier Safety Administration. December 2003-February 2004

                                                                                    Audits, Investigations, Testimony 31
                                                          Pilot Ordered to Halfway House

                                        Jack S. Stroming was ordered to spend four months in a halfway house and
                                     was prohibited from participating in aviation activities for a two-year period by
                                     a U.S. District Court judge in Fort Lauderdale, FL.
                                        Stroming, a private pilot, lied about past criminal convictions on his applica­
                                     tion for an airman medical certificate by indicating he did not have a history of
                                     felonies when he had an extensive history of Federal and state criminal convic­
                                     tions, including narcotic, assault, and weapon offenses. He pleaded guilty on
                                     December 17, 2003, to one count of making false statements. FAA may also
                                     revoke Stroming’s airman certificate. March 5

                                                       Trucker Responsible for Fatal Crash
                                                        Sentenced for Falsifying Logbook

                                        Stanley N. Waddy, Jr., a former commercial trucker for Tapscott Trucking in
                                     Thornburg, VA, was sentenced in U.S. District Court in Philadelphia to time
                                     served in prison on state charges (16 months) and put on five years of proba­
                                     tion. Waddy pleaded guilty on January 5 to ten counts of making false state­
                                     ments to DOT for falsifying his driver logbook to hide how long he had been
                                     driving without rest. On December 12, 2001, Waddy, after using marijuana,
                                     caused a six-vehicle crash that killed two people in Ridley Township, PA. He
                                     was convicted on state charges related to the fatal crash and completed serving
                                     his jail time in December 2003. March 29




32   Semiannual Report to Congress
Audits, Investigations, Testimony 33
                                                                Investigation Finds Violations
                                                               and Deficiencies in New Orleans
                                                                        DBE Programs


                                                  A
                                                             n OIG investigation into allegations of disadvantaged business enter-
                                                             prise (DBE) fraud in New Orleans found significant programmatic defi-
                                                             ciencies and violations in key areas at three city agencies. The agencies
                                                  are the New Orleans International Airport, the Regional Transit Authority, and the
                                                  Orleans Levee District, which operates Lakefront Airport, all of which receive DOT
                                                  funding.
                                                     Our review resulted from a request by the House App ropriations Committee in
                                                  the report accompanying the FY 2003 DOT App ropriations Act. The request
                                                  stemmed f rom conce rns initially raised by Representative Harold Rogers, then
                                                  chairman of the House Transportation App ropriations Subcommittee, and
                                                  Representative David Vitter over a series of articles in the New Orleans Times-
                                                  Picayune newspaper about alleged systemic p roblems in local DBE programs.


                                                  WHAT WE FOUND
                                                     Our investigative report, released November 24, substantiated many of the
                                                  alleged abuses in the DBE programs reported in the Times-Picayune series, find-
                                                  ing DBE businesses controlled by nonminorities, suspected illegal DBE f ronts,
New Orleans Lakefront Airport, Terminal
Building, New Orleans, LA                         and a widesp read perception that political patron age affected the awa rding of
                                                  DBE contracts. Under DOT laws, DBE firms must be owned and cont rolled by
                                                  socially and economically disadvantaged individuals in o rder to participate in the
                                                  program.

                                                     OIG special agents found alleged abuses in five major areas.
                                                  ■ Illegal DBE Fronts. We uncovered three suspected DBE fronts. The term
                                                  “f ront” refers to a DBE that does not perform the work required to fulfill DBE par-
                                                  ticipation under prime contracts. Instead, a prime contractor or subcontractor
                                                  pays the DBE a relatively small amount to use their DBE status, the reby enabling
                                                  the contractor to falsely represent that the DBE is performing the work. The prime
                                                  contractor or another non-DBE contractor then actually performs the work and
                                                  receives most of the payments. These investigations a re ongoing.

                                                  ■ DBE Owners Who Exceeded Personal Net-Worth Limits. We identified sev-
                                                  eral DBE owners who exceeded the personal net worth limit of $750,000. For
                                                  example, one DBE owner was a multimillionaire and one of the largest con-
                                                  tractors in the southeaste rn United States. The owner has since been decerti-
                                                  fied.



34                Semiannual Report to Congress
                                                                                                           Focus
■ Businesses Controlled by Nonminorities. We found multiple DBE businesses
controlled by individuals who wer e ineligible for DBE status. One DBE owner,
whose DBE status was based on her gender, admitted she knew little about the
operation of her business, which her son, who was not eligible for DBE status,
was running. She has been decertified.

■ No Annual Affidavits. The three agencies did not enforce regulations requir-
ing DBE owners to submit annual affidavits certifying continued pr ogram eligibil-
ity. Over half of the certification files we r eviewed for the levee district lacked the
affidavits, as did 30 per cent of airport and 25 per cent of transit-authority certifi-
cation files.

■ Political Patronage. We found a widespr ead perception that political patr on-
age was prevalent in the DBE programs in New Orleans during the 1999-2002
period. Mor e than 60 percent of the DBEs we interviewed expr essed their belief
that political patr onage affected the awarding of DBE contracts.

■ Site Visits Not Conducted or Inadequate. DBE program managers at the
transit authority and levee district did not conduct r equired site visits with 50 per-
cent and 30 percent, respectively, of their certified DBEs. Site visits that wer e
conducted during the certification pr ocess were not thorough enough to detect
eligibility violations or false statements and DBE fraud.


MAKING CHANGES
    An important part of our investigation included briefing the city agencies on
best practices and r ecommending ways to impr ove their oversight of the DBE
programs. The three agencies have already begun to perform mor e thorough site
visits, track r ecertification and annual reporting requirements, and a review of
their DBE certification files and personal net-worth information.
   Because of weaknesses in FTA and particularly FAA’s oversight of their New
Orleans DBE programs, we recommended these agencies str engthen their stew-
ardship by doing site visits, interviews of DBE and prime contractors, detailed
reviews of certification files, work-site surveillance, and their own examination of
local applications for certification.
   This review uncovered several cases of possible fraud that we ar e continuing
to investigate. The cases involve possible illegal fronts, political patr onage, and
the circumvention of pr ocurement procedures.




                                                                                           Audits, Investigations, Testimony 35
                                                    SafeStat Data Lacking in
                                             Completeness, Accuracy, Timeliness


                                     O
                                               ur audit of SafeStat, an automated data system that FMCSA uses to tar-
                                               get motor carriers for safety inspection and enfor cement activities,
                                               raised a serious concern that the data be mor e complete, accurate, and
                                     timely because of the system’ s public dissemination and exter nal use. We per-
                                     formed the audit, which we issued on February 13, at the r equest of
                                     Representative Thomas E. Petri, chairman of the House Transportation and
                                     Infrastructure Highways and Transit Subcommittee.
                                        SafeStat, shorthand for Motor Carrier Safety Status Measur ement System, is
                                                                 an automated system that measur es the relative safe-
                                                                 ty of motor carriers used in interstate commer ce or to
                                                                 haul hazardous materials. Developed in the mid-
                                                                 1990s, it evaluates motor carriers in four ar eas —
                                                                 crashes, drivers, vehicles, and safety management —
                                                                 based on data reported to FMCSA, ranks carriers
                                                                 against one another, and assigns them a percentile
                                                                 ranking from 0 to 100, with 100 being the worst.


                                                                 FINDINGS
                                                                   Our audit found that SafeStat generally calculated
                                                                 scores consistent with its design. Gover nment users
                                                                 told us they view SafeStat as an effective tool in tar-
                                                                 geting high-risk carriers.
                                                                   The concern about SafeStat arises from the fact
                                                                 that since December 1999, it has been available to
                                                                 the general public over the World Wide Web for use in
                                                                 choosing which commer cial truck or bus company to
                                                                 hire. Safestat is accessed as often as 80,000 times a
                                     month and can have an economic impact on carriers, so its r eliability is impor-
                                     tant.
                                        While we found SafeStat sufficient for inter nal use within the Department, we
                                     identified weaknesses in the data r eported by states and motor carriers and with
                                     FMCSA’s processes for corr ecting and disclosing data pr oblems.
                                        Our most serious concer n was with the continued public dissemination of
                                     motor-carrier rankings for the accident-evaluation ar ea because of the incom-
                                     pleteness of crash data. State motor -carrier safety data — including crash and




36   Semiannual Report to Congress
                                                                                                        Focus
inspection data — is not always r eported to FMCSA for use in Safestat, and
reported data is often untimely , incomplete, or inaccurate. For example, it is esti-
mated that Arkansas, the District of Columbia, Florida, Geor gia, New Hampshire,
New Mexico, Rhode Island, Tennessee, and Virginia did not r eport at least 60 out
of every 100 large trucks involved in r eportable crashes in 2001. Timely and
accurate reporting is important since Safestat mor e heavily weights crashes and
negative inspection findings that have occurr ed within the last six months.
  In addition, motor carriers ar e not regularly updating their census data (num-
ber of trucks and drivers) with FMCSA, a fact that undermines SafeStat’ s effec-
tiveness when ranking carriers. In the worst case, carriers incorr ectly shown on
census records as having zero vehicles can have crashes, including fatalities,
without a negative impact on their SafeStat scor e. For example, about 272,000
or 42 percent of the active interstate motor carriers had not met the congr es-
sionally mandated requirement to update census data every two years, as of
January 2003.


RECOMMENDATIONS
  We recommended that FMCSA: (1) revalidate the SafeStat model; (2) provide
states and motor carriers with an impr oved system to corr ect inaccurate data; (3)
expand cautionary statements on SafeStat to include state-specific information
                                         on data-quality pr oblems; and (4) expedi-
                                          tiously establish an overall data-quality
                                         improvement program
                                             FMCSA agreed with our concer ns for
                                          improving data quality and cited a num-
                                          ber of impr ovements it has already
                                         implemented or has under way. These
include modifications to war n Safestat users of data limitations, r evalidation of
the SafeStat model; work with states to impr ove the accuracy of data r eporting;
and making federal motor -carrier safety-impr ovement grants to the states con-
tingent on participation in certain data-quality pr ograms.




                                                                                        Audits, Investigations, Testimony 37
                                       Emery Worldwide Airlines Fined $6 Million
                                        for Illegal Shipment of Hazardous Cargo



                                     C
                                              ulminating a four-year investigation, a federal judge in Dayton, OH, fined
                                              Emery Worldwide Airlines $6 million on December 19, 2003, for 12
                                              counts of willfully violating the Hazar dous Material Transportation Act.
                                     The fine, the second-highest dollar r ecovery tied to hazardous materials in U.S.
                                     aviation history, was announced at a joint pr ess conference of the departments of
                                     Transportation and Justice on September 30 in W ashington, DC. At the press
                                     conference, U.S. Attorney General Ashcroft and Secretary of Transportation
                                     Mineta, with DOT Inspector General Mead and FAA Administrator Blakey, gave
                                     notice of a new joint initiative
                                     to stem illegal shipments of
                                     hazardous cargo.
                                        Emery’s    sentence     also
                                     included a thr ee-year proba-
                                     tionary term. During pr oba-
                                     tion, Emery will institute a
                                     compliance pr ogram to pr e-
                                     vent additional hazmat violations.
                                        A wholly owned subsidiary of CNF, Inc., of Palo Alto, CA, Emery provided air
                                     and land transportation for business-to-business shippers of heavyweight car go.
                                     Emery’s admission of guilt involves 12 occasions at its hub near Dayton between
                                     November 1998 and July 1999 when it did not give the commanding pilot
                                     required written notice that hazmat had been loaded on air craft. It is important for
                                     pilots to know about hazar dous cargo so they can respond quickly and appr opri-
                                     ately to on-boar d emergencies, such as fires or spills. The types of hazmat
                                     involved included nonflammable gas, corr osive liquid, flammable liquid, explosive
                                     and radioactive material, toxic substance, and “miscellaneous danger ous goods.”
                                        The case, which was investigated by OIG with assistance fr om FAA, first



                                             Hazmat has been a top investigative
                                                      priority of OIG since 1997.

                                     came to the gover nment’s attention when an Emery employee made allegations
                                     that the company was shipping hazar dous materials with inadequate docu-




38   Semiannual Report to Congress
                                                                                                      Focus
mentation, failing to notify the pilots, and concealing pr oblems from FAA
inspectors.
  According to DOT statistics, about 300 million shipments of hazar dous mate-
rials are transported annually. About 5 percent move by air, 94 percent by motor
carrier, and 1 percent by rail.
  Hazmat has been a top investigative priority of OIG since 1997. OIG’ s role




involves criminal investigations, with a focus on individuals and institutions that
defraud DOT hazmat programs.




                                                                                      Audits, Investigations, Testimony 39
                                                          DOT Receives Third Consecutive
                                                                “Clean” Audit of
                                                           Annual Financial Statements


                                                F
                                                         or the third year in a row, the Department received an unqualified, or
                                                         “clean,” audit opinion on its consolidated financial statements. OIG is
                                                         required by law to conduct an annual audit of DOT’ s financial statements.
                                                This year’s audit opinion, issued on January 30, applies to the FY 2003 state-
                                                ments.
                                                  Consolidated financial statements show how the department accounted for its
                                                total budgetary r esources of $128 billion in FY 2003 provided by American tax-
                                                payers for federal transportation activities. The Department has r eceived an
                                                unqualified opinion on its financial statements for four of the last five years.
                                                  Because DOT’s financial operations — including assets, liabilities, and pr ogram
     “The Department has                        costs — “ar e comparable in size to a Fortune 100 company, ensuring the
                                                Department’s financial statements are in order is particularly important,” Inspector
     received an unqualified
                                                General Kenneth Mead said. He attributed the Department’ s achievement of a

     opinion on its financial                   clean opinion for the thir d year running to “a concerted ef fort to over come signif-
                                                icant financial and accounting hur dles.”
 statements for four of the                       We warned that the Office of Management and Budget has set a deadline of
                                                November 15, 2004, for completion of the FY 2004 financial statements. This
         last five years.”                      accelerated due date will challenge some of the operating administrations to
                                                make major improvements in their accounting policies and pr ocedures to enable
                                                the Department to meet the shortened timeframe.
                                                  We categorized pr oblems encounter ed with the financial statements into four
                                                “material weaknesses,” which ar e deficiencies in the design or operation of inter-
                                                nal controls, and five less-serious reportable conditions. The material weakness-
                                                es involve:


                                                ■ Information security program. The Department has made significant
                                                progress in protecting its systems against exter nal attacks thr ough the Internet.
                                                Nevertheless, it is still behind in pr otecting its systems against inter nal attacks
                                                from employees, contractors, grantees, and industry associations.




40              Semiannual Report to Congress
                                                                                                          Focus
■ Cost-reimbursable contracts at FAA. Cost-r eimbursable contracts have few
inherent protections against cost overruns or impr oper payments. Although FAA
has made significant pr ogress closing out completed cost-r eimbursable con-
tracts, about $3.4 billion worth of completed contracts r emain to be closed.

                                                                                                  “DOT’s financial
■ Financial management and reporting for Highway Trust Fund agencies. HTF
agencies lack adequate accounting and financial management policies and pr o-                       operations are
cedures. To illustrate, most HTF agencies did not r outinely reconcile their
accounts during the year, a basic management practice. Pr oblems caused by                     comparable in size to a
these long-standing deficiencies wer e compounded this year because FHW A and
FMCSA did not adequately plan or implement their conversions to Delphi, the                    Fortune 100 company.”
Department’s new financial management system, in February 2003.


■ Reconciling transactions with other federal agencies. DOT has not imple-
mented effective processes to reconcile its transactions with other Federal agen-
cies. This problem occurs, for example, when F AA performs reimbursable work for
the Department of Defense.
  The five reportable conditions include (1) Delphi computer security; (2) FHWA’s
financial management reviews of grantees; (3) FAA’s reporting of its pr operty,
plant, and equipment; (4) MARAD’s financial management practices; and (5)
accounting for loans in Delphi.
  In addition to the department-wide audit, we conducted individual audits on
the FAA and Highway Trust Fund financial statements, the FY 2003 and 2002
financial statements of the St. Lawr ence Seaway Development Corporation, and,
for the first time, the National Transportation Safety Boar d financial statements. All
four audits resulted in unqualified opinions. The audits wer e performed by OIG
staff, KPMG LLP, Clifton Gunderson LLP, Daniel Eke and Associates, and Brown
and Company.




                                                                                          Audits, Investigations, Testimony 41
42   Semiannual Report to Congress
          other

 a c c o m p l i s h m e n t s


T
        his section describes significant accomplishments of OIG staff that are
        not included in the legal reporting requirements of the Inspector
        General Act.

            GAO Financial Statement Checklist Completed

   Based on our recommendation, the Department completed the GAO
Financial Statement Checklist for its FY 2003 consolidated financial statements.
While not required, completing the checklist helped assure the Department
that it prepared its financial statements in accordance with federal generally
accepted accounting principles and OMB. October 2003

            Lines Rerouted to Avert Air-Traffic Disruptions

  As a result of an OIG recommendation, an FAA en-route air-traffic-control
center redirected its telecommunication lines to reduce their susceptibility to a
mishap that might disrupt air-traffic-control operations. Before the correction,
the center’s primary and backup fiber-optical lines ran parallel and in close
proximity to each other, thereby increasing their vulnerability to the same acci­
dent or incident. December 2003

             FAA Renegotiates Air-Traffic-Controller MOUs

   As a result of an OIG audit, FAA reviewed all memorandums of under-
standing (MOUs) and pay rules and included the most problematic ones as
part of the Agency’s negotiations to extend the National Air Traffic Controllers
Association union contract. The renegotiated pay rules eliminated pay raises for
controllers who transfer to a busier, consolidated facility in advance of moving.
Also, the new pay rules should allow FAA to set newly hired controllers’ salaries
at levels that are commensurate with an entry-level position. Other changes to
MOUs corrected issues that infringed on management’s decisions making
authority such as management’s rights to make technical decisions and admin­
ister training in the deployment of new systems. FAA estimates that depending
on hiring needs, the extension could result in a cost avoidance of as much as
$40 million over the next four years. December 2003




                                                                                    Other Accomplishments   43
                                            Florida’s Payment of Relocation Expenses Speeded Up
                                                         A hotline complaint from an arts center occupant in
                                                          Jacksonville, FL, resulted in a finding by FHWA that the
                                                            Florida Department of Transportation was lagging in
                                                             paying the complainant’s reestablishment expenses.
                                                             The man was forced to relocate his establishments
                                                             because of state right-of-way acquisitions. This laxity
                                                             not only caused financial hardship, but also violated
                                                            federal regulations concerning reimbursement of
                                                         expenses when displaced organizations and small business­
                                                    es have to move and reestablish themselves. FDOT paid the
                                     complainant for his expenses. February 2004

                                                    Safer Flights for a Cargo Airline Company
                                        An OIG hotline complaint alleged that a cargo airline company in Miami,
                                     FL, was using old nets to secure cargo during transport, creating a potential
                                     safety hazard if the goods shifted in flight. The company took corrective action
                                     by issuing cargo alert bulletins, purchasing 500 new cargo nets, and contract­
                                     ing for repairs to the old cargo nets. February 2004

                                                  Hotline Complaints Prompt FMCSA Reviews

                                        We received a number of hotline reports that prompted us to notify FMCSA
                                     of possible regulatory compliance problems. One complaint alleged that a
                                     Neenah, WI, trucking company was operating with a falsified insurance certifi­
                                     cate. During a compliance review, FMCSA gave the company an unsatisfacto­
                                     ry rating and initiated enforcement action. The company has since gone out of
                                     business. February 2004
                                        Another complaint alleged a Little Rock, AR, trucking company was violat­
                                     ing driver alcohol- and drug-testing and truck-maintenance requirements. In a
                                     compliance review, FMCSA gave the company a “conditional” safety rating
                                     based on these two types of violations, as well as duty-status violations, which
                                     could include safety issues such as allowing a driver to operate a commercial
                                     motor carrier without a valid commercial driver’s license or failing to make a
                                     complete inquiry into a driver’s driving record. February 2004
                                        Another complainant alleged a trucking company in Romulus, MI, was vio­
                                     lating hours-of-service and driver’s logbook requirements. FMCSA gave the
                                     company a conditional safety rating and has taken enforcement action to
                                     address the carrier’s noncompliance. February 2004



44   Semiannual Report to Congress
                   Threatened Employee Protected

   An employee of the Transportation Federal Credit Union (TFCU) was the
recipient of threatening and abusive calls while working at the Volpe
Center’s credit union office in Cambridge, MA. OIG, Volpe, and the
security contractor established a protocol to contact the Cambridge
Police Department if the suspect came to TFCU, which she did. OIG special
agents were present when the police arrived to arrest the caller. March 2004




                                                                               Other Accomplishments   45
46   Semiannual Report to Congress
C h a r t s & Ta b l e s

Summary of Performance
October 1, 2003 – March 31, 2004

Reports issued
                                                   39


Recommendations issued
                                         103


Congressional testimonies
                                         3


Total financial recommendations
                       $ 553,396,025


  — that funds be better used                          $ 547,500,000


  — that questioned costs                              $   5,896,025


Cases referred for prosecution                                  224


Cases accepted for prosecution                                  151


Indictments                                                       93


Fines, restitutions, civil judgments, and recoveries   $ 24,564,794

Convictions                                                       90

Debarments and suspensions                                         2

Actions affecting DOT employees                                   20




                                                                        47
                                     INVESTIGATIONS

                                     Judicial and Administrative Actions
                                     October 1, 2003 – March 31, 2004
                                     Indictments                                                                                                 93

                                     Administrative actions

                                       Employee

                                           terminations                                                                                           3

                                           suspensions                                                                                            8

                                           downgrade                                                                                              1

                                           reassignments                                                                                          2

                                           reprimands                                                                                             2

                                           resignations and retirements                                                                           4

                                       Debarments and suspensions                                                                                 2

                                       Federal funding suspended or revoked                                                                       4

                                       Licenses revoked, terminated, or suspended                                                                 4

                                     Convictions                                                                                                 90

                                     Years sentenced                                                                                           119

                                     Years probation                                                                                           117

                                     Years supervised release                                                                                  114

                                     Hours of community service                                                                                866

                                                                                 Financial Impact
                                     Fines                                                                                        $    8,580,800

                                     Restitutions/civil judgments                                                                 $    8,945,161

                                     Federal recoveries*                                                                          $    1,601,947

                                     Administrative recoveries†                                                                   $    5,312,772

                                     State recoveries*                                                                            $       124,114

                                     TOTAL                                                                                        $ 24,564,794

                                     * “Recoveries” include fines, restitution, civil judgments or settlements, and the cost of remedial actions. 

                                     Federal recoveries go to the U.S. Treasury; state recoveries are retained by the states.

                                     †”Administrative recoveries” may include suspension, reduction, or redistribution of federal funding.





                                     D
                                               uring the six-month reporting period, 129 cases were opened and 83
                                               were closed, leaving a pending caseload of 587. Cases involving 224
                                               people and institutions were referred for prosecution. Of the referrals
                                     during this or prior reporting periods, cases involving 151 people and institu­
                                     tions were accepted for prosecution, and the cases of 74 people or firms were
                                     declined. As of March 31, 2004, 26 cases were pending before prosecutors.

48   Semiannual Report to Congress
Profile of Pending Investigations
As of March 31, 2004
                                                                                    Types of Cases
                                                                Contract
                                                 Number         & Grant    Employee     Aviation   Motor Carrier
                                                 of Cases        Fraud      Integrity    Safety       Safety       Hazmat    Other
Operating Administration
Bureau of Transportation Statistics                 1               0          1           0              0          0          0
Federal Aviation Administration                   237             29          73         117              0          8         10
Federal Highway Administration                    120            112           5           0              0          0          3
Federal Railroad Administration                    18               5          4           0              0          6          3
Federal Transit Administration                     32             29           0           0              0          1          2
Maritime Administration                             4               4          0           0              0          0          0
Federal Motor Carrier Safety Administration       105               1          4           0             80          16         4
Office of the Secretary                            15               6          7           0              0          0          2
Research and Special Programs Administration       41               2          3           0              0          36         0
National Highway Traffic Safety Administration     14               4          3           0              0           0         7
Totals                                            587            192        100          117             80         67         31
Percent of Total                                  100%            33%        17%          20%          14%          11%        5%




Application of Investigative Project Hours by Operating Administration
                                                                                                                            NHTSA 3%
October 1, 2003 – March 31, 2004 MARAD 1%	
                                                                                                                            FRA 4%

                                                                                                                            RSPA 5%



                                                              FAA 28%                                                       OST 5%




                                                                                                                            FTA 7%




                                                            FMCSA 29%

                                                                                                                            FHWA 18%




                                                                                           C h a r t s    &   Ta b l e s             49
Application of Investigative Resources by Priority Area
October 1, 2003 – March 31, 2004
                                                                                                                                           Hazardous

                                                                                                                                           materials safety 10%





                            Contract & grant fraud 30%                                                                                     Employee integrity 12%




                                                                                                                                           Aviation safety 13%




                                                                                                                                           Motor carrier safety 16%

                                            Other 21%


Percentages add to more than 100 percent due to rounding.




AUDITS
Completed OIG Reports
October 1, 2003 – March 31, 2004
(Estimated amounts*, dollars in thousands)
                                                       Number of             Number of                 Questioned            Unsupported     Funds to Be Put
                                                        Reports           Recommendations                Costs                  Costs         to Better Use
Type of Review
Internal Audits
— Program/functional                                         7                       26                            0                $0            $547,500
— Chief financial officer financial statements               6                       32                            0                 0                      0
Other OIG Internal Reports                                   1                         0                           0                 0                      0

Total Internal Audits and Reports                          14                        58                          $0                $0            $547,500
Grant Audits
— Audits of grantee under Single Audit Act                 25                        45                     $5,896                  $0                    $0

Total                                                      39                      103                      $5,896                 $0            $547,500
*The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
Note: Department of Transportation programs and operations are primarily carried out by the Department’s personnel and
recipients of federal grants. Audits by DOT’s Office of Inspector General, as a result, fall into three categories: (1) inter­
nal audits of departmental programs and operations; (2) internal reviews of departmental programs and operations; and
(3) audits of grant recipients. The table shows OIG’s results in the three categories.



50                     Semiannual Report to Congress
OIG Reports with Recommendations That Questioned Costs
October 1, 2003 – March 31, 2004
(Dollars in thousands)
                                                          Number of                 Number of           Questioned                 Unsupported
                                                           Reports               Recommendations          Costs                      Costs*
Reports
A For which no management decision was made
  by the start of the reporting period                         17                         21             $ 48,982                      $0

B Which were issued during the reporting period                20                         31             $   5,896                     $0

Total A+B                                                      37                         52             $ 54,878                      $0
C For which a management decision was made
  during the reporting period                                  21                         30             $   5,645                     $0
  — dollar value of disallowed costs†                          14                         20             $   3,262                     $0
  — dollar value of costs not disallowed†                      13                         15             $   2,567                     $0

D	 For which no management decision was made by the
   end of the reporting period                                 18                         22             $ 49,233                      $0

*There were no recommendations for unsupported costs.

†Includes reports and recommendations where costs were both allowed and disallowed.





OIG Reports with Recommendations That Funds Be Put to Better Use

October 1, 2003 – March 31, 2004

(Dollars in thousands)
                                                             Number of                   Number of           Funds to Be Put
                                                              Reports                 Recommendations         to Better Use
Reports
A For which no management decision was made
  by the start of the reporting period                              3                          3               $         763,500
B Which were issued during the reporting period                     2                          4               $         547,500

Total A+B                                                           5                          7               $ 1,311,000

C For which a management decision was made
  during the reporting period                                       1                          1               $          48,000
   — dollar value of recommendations agreed
     to by management                                               1*                         1*              $          18,700
   — dollar value of recommendations
     not agreed to by management                                    1*                         1*              $          29,300
D For which no management decision
  was made by the end of the reporting period                       4                          6               $     1,263,000

*Includes reports and recommendations where costs were both allowed and disallowed.




                                                                                                    C h a r t s      &     Ta b l e s            51
OIG Reports Recommending Changes for Safety, Economy, or Efficiency

October 1, 2003 – March 31, 2004

                                                        Number of              Number of
                                                         Reports            Recommendations
Reports
A	 For which no management decision was made
   by the start of the reporting period                     44                       112 *
B Which were issued during the reporting period             22                        68

Total A+B                                                   66                       180

C	 For which a management decision was made
   during the reporting period                             38†                        78
D	 For which no management decision was made
   by the end of the reporting period                      33†                       102

*Adjusted from previous semiannual report by a net decrease of 2 recommendations.
†Includes reports where management made decisions on some but not all recommendations.




Management Decisions Regarding OIG Recommendations
October 1, 2003 – March 31, 2004
(Dollars in thousands)
                                                      Number of         Number of                Questioned     Unsupported   Funds to Be Put
                                                       Reports       Recommendations               Costs           Costs       to Better Use
Description
Unresolved as of October 1, 2003                          50                  136*                 $48,982          $0            $763,500
Audits with findings during current period                33                   103                  $5,896          $0            $547,500
Total to Be Resolved                                      83                  239                $54,878            $0         $1,311,000
Management Decisions:
— Audits prior period†                                    33                    72                  $2,611          $0             $48,000
— Audits current period†                                  17                    37                  $3,034          $0                  $0
Total Resolved                                           50                   109                  $5,645           $0            $48,000
Unresolved:
— Less than 6 mos. old                                    18                    66                  $2,862          $0            $547,500
— 6 mos.–1 year                                           16                    46                 $46,357          $0            $221,000
— 1 year–18 mos.                                           1                     2                     $14          $0                  $0
— 18 mos.–2 years                                          0                     0                       $0         $0                  $0
— Over 2 years old                                         6                    16                       $0         $0            $494,500
Total Unresolved as of March 31, 2004‡                    41                  130                $49,233            $0         $1,263,000

* Adjusted from previous semiannual report by a net decrease of 2 recommendations due to improper data entry.
† Includes reports and recommendations where costs were both allowed and disallowed.
‡ Considered unresolved if management decisions have not been made on all report recommendations.



52                    Semiannual Report to Congress
Office of Inspector General Published Reports
October 1, 2003 – March 31, 2004
Operating
Administration/                                             Focus of Report/                                  Date             Report
Type of Report    Title                                     Recommendations                                  Issued            Number

Federal Aviation Administration
Internal Audits: Program/Functional—3 reports
                   Using CRU-X to Capture                   Better tracking of FAA’s workforce needed
      2–10–04          AV–2004–033
                   Official Time Spent on

                   Representational Activities


                   Status Report on the Advanced            New system may be delayed due to
               3–31–04          AV–2004–037
                   Technologies and Oceanic                 software development and testing problems

                   Procedures System


                   Revenue Diversions at San                Put $12,500,000 to better use
                  3–31–04          SC–2004–038
                   Francisco International Airport


Grant Audits: Audits of Grantee Under Single Audit Act—9 reports
                   City of San Jose, CA                     $1 questioned
                                  11–18–03         QC–2004–002

                   Jackson County Airport Authority, MS     $238,535 questioned 
                           11–18–03         QC–2004–003

                   Lea County, NM                           $27,816 questioned
                             11–18–03         QC–2004–004

                   Port of Seattle, WA                      Improve grantee oversight
                      12–23–03         QC–2004–011

                   Owensboro–Daviess County                 $26,433 questioned
                             1–20–04          QC–2004–016
                   Regional Airport Board, KY

                   State of North Carolina                  $388,805 questioned
                            1–20–04          QC–2004–018

                   Virginia Highlands Airport Commissions   $57,135 questioned
                             1–20–04          QC–2004–023

                   Port Authority of New York and           Improve grantee oversight
                      1–20–04          QC–2004–028
                   New Jersey

                   City of Pendleton, OR                    $16,807 questioned 
                            1–27–04          QC–2004–030

Internal Audits: Chief Financial Officer Financial Statement—1 report
                   Quality Control Review of                Unqualified opinion on financial statements 
   12–19–03         QC–2004–008
                   Audited Financial Statements for 

                   Fiscal Years 2003 and 2002


Federal Highway Administration
Internal Audits: Program/Functional—1 report
                   Inactive Obligations                     Put $535,000,000 to better use                  3–31–04          FI–2004–039



                                                                                             C h a r t s    &   Ta b l e s         53
Office of Inspector General Published Reports (continued)

Operating
Administration/                                            Focus of Report/                         Date       Report
Type of Report      Title                                  Recommendations                         Issued      Number
Internal Audits: Chief Financial Officer Financial Statement—1 report
                    Quality Control Review,                Unqualified opinion on financial
      1–23–04    QC–2004–029
                    Audited Financial Statements           statements

                    for Fiscal Years 2003 and 2002,

                    Highway Trust Fund


Grant Audits: Audits of Grantee Under Single Audit Act—6 reports
                    State of Rhode Island and              $762,404 questioned                    11–18–03   QC–2004–001
                    Providence Plantations

                    Wyoming Department of Transportation   $43,000 questioned                     1–20–04    QC–2004–013

                    Commonwealth of Massachusetts          $979,042 questioned                    1–20–04    QC–2004–015

                    City of Fresno, CA                     $50,145 questioned                     1–20–04    QC–2004–024

                    State of North Dakota                  $35,958 questioned                     1–20–04    QC–2004–026

                    State of Louisiana                     $294,302 questioned                    1–20–04    QC–2004–027

Federal Motor Carrier Safety Administration
Internal Audits: Program/Functional—1 report
                    Improvements Needed in the             Additional safeguards and
             2–13–04    MH–2004–034
                    Motor Carrier Safety Status            controls needed to ensure data

                    Measurement System                     quality; actions needed to 

                                                           improve the system’s effectiveness


Federal Railroad Administration
Internal Audits: Program/Functional—1 report
                    Review of Slow Orders and Track        Improvements needed in replacement 
   12–10–03   MH–2004–007
                    Reclassification                       practices for ballast materials


Federal Transit Administration
Grant Audits: Audits of Grantee Under Single Audit Act—10 reports

                    Central Ohio Transit Authority         Improve grantee oversight              12–23–03   QC–2004–010

                    Suburban Mobility Authority for        $16,861 questioned                     1–20–04    QC–2004–012
                    Regional Transportation, MI

                    Broward County, FL                     $15,603 questioned                     1–20–04    QC–2004–014

                    State of Maryland                      $329,253 questioned                    1–20–04    QC–2004–017

                    Chambersburg Transit Authority, PA     $355,721 questioned                    1–20–04    QC–2004–019


54                Semiannual Report to Congress
Operating

Administration/
                                               Focus of Report/                                  Date             Report
Type of Report     Title
                                      Recommendations                                  Issued            Number


                   Central New York Regional                   $287,641 questioned                             1–20–04          QC–2004–020
                   Transportation Authority and Subsidiaries

                   Southeastern Pennsylvania                   Improve grantee oversight                       1–20–04          QC–2004–021
                   Transportation Authority

                   Port Authority of Allegheny County, PA      Improve grantee oversight                       1–20–04          QC–2004–022

                   City of Tulsa, OK                           $738,705 questioned                             1–20–04          QC–2004–025

                   Washington Metropolitan Area                $1,231,858 questioned                           3–29–04          QC–2004–036
                   Transit Authority, DC

National Transportation Safety Board
Internal Audits: Chief Financial Officer Financial Statement—1 report

                   Quality Control Review of                   Unqualified opinion on financial statements     1–30–04          QC–2004–032
                   Audited Financial Statements
                   for Fiscal Year 2003

Office of the Secretary Of Transportation
Internal Audits: Program/Functional—1 report
                   DOT’s Rulemaking Process and                Process and timeliness improved,                3–2–04           SC–2004–035
                   Tracking System                             but additional actions are needed

Internal Audits: Chief Financial Officer Financial Statement—1 report
                   Consolidated Financial Statements           Unqualified opinion on financial statements     1–30–04          FI–2004–031
                   for Fiscal Years 2003 and 2002

Other Internal OIG Reports—1 report
                   Top Management Challenges 	                 Top management challenges related               12–5–03          PT–2004–006
                                                               to DOT’s ongoing mission

Transportation Security Administration
Internal Audits: Chief Financial Officer Financial Statement—1 report
                   Quality Control Review of TSA               Unqualified opinion on balance sheet            12–1–03          QC–2004–005
                   Balance Sheet as of February 28, 2003

Saint Lawrence Seaway Development Corporation
Internal Audits: Chief Financial Officer Financial Statement—1 report
                   Quality Control Review of Audited           Unqualified opinion on financial statements 
   12–23–03         QC–2004–009
                   Financial Statements for Fiscal 

                   Years 2003 and 2002



                                                                                              C h a r t s      &   Ta b l e s         55
Office of Inspector General Congressional Testimonies
October 1, 2003 – March 31, 2004

Title                                                 Congressional Body                                                 Testimony Date

The Future of Intercity Passenger                     Senate Committee on Commerce, Science, and Transportation             10–2–03
Rail Service and Amtrak

Observations on Bringing Fiscal Discipline            House Transportation and Infrastructure Subcommittee on Aviation     10–30–03
and Accountability to FAA’s Air Traffic
Control Modernization Program

FAA’s FY 2005 Budget: Opportunities to Control        House Appropriations Subcommittee on Transportation,                  3–17–04
Costs and Improve Effectiveness of Programs           Treasury, and Independent Agencies




Status of Unresolved Recommendations Over Six Months Old
Cited in Semiannual Report for Reporting Period—                      Status                              Date Issued     Report No.
April 1–September 30, 2000
 Contract Towers: Observations on FAA’s               Awaiting additional information from FAA               4–12–00     AV–2000–079
 Study of Expanding the Program

April 1–September 30, 2001
 Compensation Issues Concerning Air Traffic           Working with FAA to resolve open issues                6–15–01     AV–2001–064
 Managers, Supervisors, and Specialists

October 1, 2001–March 31, 2002
 Downtown Waycross Development Authority, GA 
        FTA working with grantee to resolve open issues 
      10–31–01    QC–2002–027

  State of Minnesota 
                                FHWA working with grantee to resolve open issues 
 10–31–01        QC–2002–030

  FAA’s Acquisition of Aviation Weather Systems 
     Working with FAA to resolve open issues 
              02–28–02    AV–2002–084

October 1, 2002–March 31, 2003
 Innovative Pavement Research Foundation              FHWA working with grantee to resolve open issues
      03–31–03    QC–2003–035

April 1–September 30, 2003
 Operational Errors and Runway Incursions             Working with FAA to resolve open issues 
              04–03–03    AV–2003–040

  Status Report on FAA’s Operational Evolution Plan   Working with FAA to resolve open issues 
              07–23–03    AV–2003–048

  City and County of San Francisco, CA                FTA working with grantee to resolve open issues 
      09–03–03    QC–2003–056

  FAA Needs to Reevaluate STARS Costs                 Working with FAA to resolve open issues 
              09–09–03    AV–2003–058
  and Consider Other Alternatives

  Commonwealth of Massachusetts                       FHWA working with grantee to resolve open issues
      09–18–03    QC–2003–064

  State of Hawaii, Department of                      FAA working with grantee to resolve open issues 
      09–18–03    QC–2003–065
  Transportation, Airports Division

  Miami–Dade County Aviation Department, FL           FAA working with grantee to resolve open issues 
      09–18–03    QC–2003–066


56                  Semiannual Report to Congress
Status of Unresolved Recommendations Over Six Months Old

                                                                                Status                                   Date Issued           Report No.


  Santa Barbara Electric Transportation Institute, CA          FTA working with grantee to resolve open issues             09–18–03          QC–2003–069

  State of West Virginia                                       FHWA working with grantee to resolve open issues            09–23–03          QC–2003–079

  City of Hattiesburg, MS                                      FTA working with grantee to resolve open issues             09–23–03          QC–2003–081

  State of Tennessee                                           FHWA working with grantee to resolve open issues            09–23–03          QC–2003–084

  State of California                                          FHWA working with Grantee to resolve open issues            09–23–03          QC–2003–085

  Information Security Program, OST                            Working with OST to resolve open issues                     09–25–03           FI–2003–086

  Air Carrier Compensation Claims                              Working with OST to resolve open issues                     09–30–03          CR–2003–092

  Computer Security of Grant Management                        Working with FTA to resolve open issues                     09–30–03           FI–2003–093
  and Payment Systems

  Allegheny County Airport Authority, PA                       FAA working with grantee to resolve open issues             09–30–03          QC–2003–091

Note: In FY 2003, a total of 95 recommendations were transferred to the Department of Homeland Security
for resolution — 7 for FAA, 11 for the Coast Guard, and 77 for the Transportation Security Administration.



Application of Audit Project Hours by Operating Administration                                                                                         MARAD 1%
                                                                                                                                                       NHTSA 1%
October 1, 2003 – March 31, 2004 Other 1%                                                                                                              FMCSA 2%
                                                                                                                                                       FRA 5%

Note: Resources shown for OST include time spent
auditing the DOT consolidated financial statement (which
includes all operating administrations) and other OST                                                                                                  RSPA 7%
activities, including the DOT rulemaking process and              FAA 34%
tracking system.

“Other” represents resources expended on the National
                                                                                                                                                       FTA 10%
Transportation Safety Board, St. Lawrence Seaway
Development Corporation, and Surface Transportation
Board. These resources totaled less than 1 percent each.


                                                                                                                                                       OST 19%




                                                                FHWA 20%




Required Statements:
   The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting period, departmental management significantly revised
management decisions stemming from an audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period, departmental man­
agement did not report any significant revisions to management decisions.
   The act also requires descriptions of any significant decisions that departmental management made regarding an audit with which OIG disagrees. When the
reporting period closed, there were no such significant decisions with which OIG disagreed.


                                                                                                             C h a r t s     &    Ta b l e s                    57
                                                            m i s s i o n,
                                                       o r g a n i z a t i o n,
                                                         & contacts

                                                T
                                                          he Office of Inspector General for the Department of Transportation
                                                          was created by Congress through the Inspector General Act of 1978
                                                          (Public Law 95–452). The act sets several goals for OIG:

                                                ■	   To conduct or supervise objective audits and investigations of DOT’s pro-
                                                     grams and operations;

                                                ■    To promote economy, effectiveness, and efficiency within DOT;

                                                ■    To prevent and detect fraud, waste, and abuse in the Department’s programs;

                                                ■	   To review existing and proposed laws or regulations affecting the Department
                                                     and make recommendations about them;

                                                ■	   To keep the Secretary of Transportation and Congress fully informed about
                                                     problems in departmental programs and operations.

                                                                                                OIG is divided into two major

                                                                                             units and five support units. The

  OIG FY 2004 Program-Level Resources                                                        major units are the Office of the

  Total: $63,379,118                                                                         Principal Assistant Inspector General

                                                                                             for Auditing and Evaluation and the

     Advisory and Assistance Contracts                                    Other $4,749,118   Office of Assistant Inspector General

                          $4,000,000                                                         for Investigations. Each has headquar­

                                                                                             ters staff and field staff. The support

             Rent to GSA $3,800,000                                                          units are the Office of Legal, Legis­

                                                                                             lative, and External Affairs; the Office

                  Travel $2,630,000                                                          of Technical Resource Management;

                                                                                             the Office of Human Resources; the

     Working Capital Fund $2,200,000                                                         Office of Financial, Administrative,

                                                                                             and Information Management; and

                                                                                             the Office of Quality Assurance

 Personnel Compensation and Benefits                                                         Reviews/Internal Affairs.
                      $46,000,000




58              Semiannual Report to Congress
                                                                                                                                 Inspector General




                                                                                                                             Deputy Inspector General




                                                                                              Assistant IG for
                                                             Assistant IG for                                                 Principal Assistant IG for
                                                                                            Legal, Legislative, &                                                       Quality Assurance Reviews & Internal Affairs
                                                              Investigations                                                   Auditing & Evaluation
                                                                                              External Affairs
                                                                                                                                                                             Technical Resource Management
                                                                                                                                                                                     Human Resources
                                                             Deputy AIG for                                                                                         Financial, Administrative, & Information Management
                                                             Investigations




                                                                                                                                                                                           Deputy AIG for
                                                                                                       Assistant IG for            Assistant IG for           Assistant IG for
                                                                         Assistant IG for                                                                                               Hazardous Materials,
                                                                                                   Financial & Information       Surface & Maritime        Competition & Economic
                                                                         Aviation Audits                                                                                                 Security, & Special
                                                                                                      Technology Audits               Programs                    Analysis
                                                                                                                                                                                             Programs



                                                                            Deputy AIG for
                                                                       Information Technology
                                                                         & Computer Security




M i s s i o n , O r g a n i z a t i o n , & C o n ta c t s
       59
                                                                    C o n t a c t s

                                               Inspector General
                                               Kenneth M. Mead . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1959

                                               Deputy Inspector General
                                               Todd J. Zinser . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6767

                                               Principal Assistant Inspector General for Auditing and Evaluation
                                               Alexis M. Stefani . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1992

                                               Assistant Inspector General for Investigations
                                               Charles H. Lee, Jr. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1967

                                               Deputy Assistant Inspector General for Investigations
                                               Rick Beitel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1972

                                               Assistant Inspector General for Legal, Legislative, and External Affairs
                                               Brian A. Dettelbach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–8751

                                               Chief Counsel
                                               Thomas Lehrich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–2923

                                               Communications Director
                                               David Barnes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–6312

                                               Assistant Inspector General for Aviation Audits
                                               David A. Dobbs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0500

                                               Assistant Inspector General for Financial and Information Technology Audits
                                               Theodore P. Alves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–0687

                                               Deputy Assistant Inspector General for Information Technology and Computer Security
                                               Rebecca C. Leng . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1488

                                               Assistant Inspector General for Surface and Maritime Programs
                                               Debra S. Ritt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–5630

                                               Assistant Inspector General for Competition and Economic Analysis
                                               Mark R. Dayton . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–9970

                                               Deputy Assistant Inspector General for Hazardous Material, Security, and Special Programs
                                               Robin K. Hunt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 744–0420

                                               Director for Audit Planning, Training, and Technical Support
                                               Michelle C. Hill . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366-0477

                                               Director of Technical Resource Management
                                               James Heminger . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1498

Hotline to report fraud, waste, and abuse:     Director of Human Resources
                                               Vivian Jarcho . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1440
     phone:     1–800–424–9071
        fax:    202–366–7749                   Director of Financial, Administrative, and Information Management
    e–mail:     hotline@oig.dot.gov            Jackie Weber . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1495
OIG website:    http://www .oig.dot.gov        Director of Quality Assurance Reviews and Internal Affairs
                                               Richard Kaplan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 366–1504

60             Semiannual Report to Congress
Abbreviations

AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General

BTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Bureau of Transportation Statistics

DBE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Disadvantaged Business Enterprise

DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Department of Transportation

FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Aviation Administration

FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Bureau of Investigation

FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Highway Administration

FMCSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Motor Carrier Safety Administration

FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Railroad Administration

FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Federal Transit Administration

GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Accounting Office

GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .General Services Administration

IT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .information technology

IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Internal Revenue Service

MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Maritime Administration

NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . . .National Highway Transportation Safety Administration

OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Inspector General

OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of Management and Budget

OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Office of the Secretary of Transportation

RSPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Research and Special Programs Administration

SafeStat       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Safety Status Measurement System

STARS . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Standard Terminal Automation Replacement System

TREAD Act . .Transportation Recall Enhancement, Accountability, and Documentation Act of 2000


                                                                                                                                         61
U.S. Department of Transportation
     Office of Inspector General

      400 Seventh Street, S.W.

      Washington, D.C. 20590

